<html>
<title> - THE SITUATION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 113-174]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-174

 
                      THE SITUATION IN AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2013

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________
                  U.S. GOVERNMENT PRINTING OFFICE
86-712                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                      The Situation in Afghanistan

                             april 16, 2013

                                                                   Page

Dunford, Gen. Joseph F., Jr., USMC, Commander, U.S. Forces-
  Afghanistan....................................................     5

                                 (iii)


                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                        TUESDAY, APRIL 16, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Udall, Manchin, Shaheen, Blumenthal, Donnelly, Kaine, King, 
Inhofe, McCain, Sessions, Ayotte, Graham, Blunt, and Lee.
    Committee staff members present: Peter K. Levine, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Jason W. Maroney, counsel; William 
G.P. Monahan, counsel; and Michael J. Noblet, professional 
staff member.
    Minority staff members present: John A. Bonsell, minority 
staff director; and Thomas W. Goffus, professional staff 
member.
    Staff assistants present: Bradley S. Watson and Lauren M. 
Gillis.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Jeff Fatora and Susie Perez Quinn, 
assistants to Senator Nelson; Casey Howard, assistant to 
Senator Udall; Mara Boggs and David LaPorte, assistants to 
Senator Manchin; Chad Kreikemeier, assistant to Senator 
Shaheen; Marta McLellan Ross, assistant to Senator Donnelly; 
Karen Courington, assistant to Senator Kaine; Christian Brose, 
assistant to Senator McCain; Lenwood Landrum, assistant to 
Senator Sessions; Todd Harmer, assistant to Senator Chambliss; 
Joseph Lai, assistant to Senator Wicker; Brad Bowman, assistant 
to Senator Ayotte; Craig Abele, assistant to Senator Graham; 
Charles Prosch, assistant to Senator Blunt; and Peter Blair, 
assistant to Senator Lee.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Before we begin, I 
want to take a moment to reflect on the tragedy in Boston. 
Thousands of people had gathered there yesterday accepting the 
physical and mental challenge of running a marathon. The city 
celebrated its annual Patriots Day holiday in remembrance of 
Boston's role in our Nation's founding.
    Whoever was responsible for targeting that celebration, 
whatever their twisted motives, they will fail. America has 
demonstrated a remarkable resilience throughout its history and 
a firm determination to bring justice to those who target the 
innocent. The perpetrators of this attack will feel the full 
weight of that justice.
    Every member of this committee, this Congress, and all of 
our people mourn the tragic loss of life. Our prayers go out to 
the victims and their families, and we hope for the swift 
recovery of those who are injured.
    This morning, the committee hears from and welcomes General 
Joseph F. Dunford, Jr., USMC, Commander of the International 
Security Assistance Force in Afghanistan, and Commander of U.S. 
Forces, Afghanistan. This is General Dunford's first appearance 
before this committee since taking command of U.S. and 
coalition forces in early February.
    General, it can be difficult for us and the American people 
to get the full picture of how things are progressing in 
Afghanistan as negative stories tend to get front-page 
coverage, while good news may not get covered at all. Based on 
my dozen or so visits to Afghanistan, most recently in January, 
it strikes me that there are real signs of progress. The North 
Atlantic Treaty Organization (NATO) training mission has made 
significant strides in building the Afghan Security Forces 
(ASF) to its target level of 352,000 personnel. Afghan forces 
are already responsible for security in areas where 90 percent 
of Afghans live, and by later this spring, they are expected to 
take the security lead throughout all of Afghanistan with 
coalition forces shifting to a supporting role.
    When Senator Jack Reed and I visited Regional Command East 
in January, we were told that in under 2 years, the ASF had 
gone from conducting less than 30 percent of operations in that 
region totally on their own--that is, without coalition forces 
present--to about 80 percent now.
    Now, there are other signs of progress as well. For 
instance, under the Taliban rule, roughly 800,000 Afghan 
children were in school, and girls were denied an education. 
Now, more than 8 million students attend Afghan schools, and 
more than 40 percent of them are female. In 2001, Afghanistan 
had 20,000 teachers, all male. Today there are 200,000 
teachers, including 60,000 women. The number of schools in 
Afghanistan has grown from 3,400 in 2001 to more than 16,000 
today. More than 18 million Afghans now have telephone access 
compared to about 1 million in 2002.
    Earlier this year, President Obama announced plans for 
drawing down 34,000 of the 66,000 U.S. troops in Afghanistan by 
February 2014. This has been interpreted as meaning that the 
bulk of the forthcoming troop reductions will be put off until 
the end of this year. For several reasons, it would be better, 
in my view, to stick to the ``steady pace approach'' that the 
President at one point said he contemplated for those 
reductions. It would drive home to Afghans and the Taliban the 
success of the ASF, whose performance our commanders tell us 
has exceeded expectations.
    Maintaining a steady pace of reductions would also send an 
important message to President Karzai. The Afghan president's 
use of anti-coalition rhetoric, while possibly serving some 
domestic political purpose, shows an insensitivity to the 
sacrifices made by our troops and coalition forces over the 
last decade, and creates a chill on the idea of a long-term 
partnership.
    It is in everyone's interest to promptly set the conditions 
for any post-2014 partnership with Afghanistan. NATO defense 
ministers have already begun consideration of the size and 
mission for a post-2014 force in Afghanistan. One factor that 
will influence that decision is the size and capacity of the 
ASF. In this regard, the recent decision by NATO defense 
ministers to support maintaining the ASF at the current 352,000 
level through 2018, rather than reducing the support to a level 
of 230,000 as previously planned, is the right thing to do. It 
sends an important signal of our continued commitment to a safe 
and secure Afghanistan, and may make it feasible for us to have 
a smaller U.S. and coalition presence after 2014.
    The greatest challenge to Afghanistan's security is not the 
Taliban, but the Pakistan base sanctuaries for militant 
extremists launching cross-border attacks into Afghanistan. 
Pakistan has said that it supports a stable and secure 
Afghanistan, but its actions belie its words. The U.S.-Pakistan 
relationship will not be normalized so long as those 
extremists' safe havens exist on Pakistani territory.
    Another large challenge to a stable Afghanistan are the 
continuing shortcomings of the Afghan Government in meeting the 
needs of the Afghan people and its lack of a willingness to 
fight corruption by government officials.
    General, you have already demonstrated that you are 
carrying on the tradition of a highly-distinguished group of 
U.S. commanders in Afghanistan. You are right in that 
tradition. You are carrying it forward brilliantly. We look 
forward to your helping us understand how far the Afghans and 
the coalition have come and what remains to be done.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. I and all of the 
rest up here identify with your comments about the tragedy 
yesterday in Boston. It is very hard to believe that that 
happened.
    Also, I thank you for commenting about, because very few 
people do it, the successes, the women who are voting, and 
getting all these good things that are happening. We don't hear 
that often enough.
    Chairman Levin. Thank you.
    Senator Inhofe. As we discussed in my office last week, I 
have been to Afghanistan several times over the past decade, 
and I am greatly concerned that we will repeat the mistakes of 
Iraq and squander the enormous sacrifice of American lives and 
treasure by a precipitous withdrawal of forces at the end of 
2014.
    In Iraq, the Obama administration's decision to abruptly 
withdraw U.S. troops in 2011 has resulted in the resurgence of 
al Qaeda, increasing sectarian violence, and a growing Iranian 
influence. The future of Iraq looks increasingly violent.
    In Afghanistan, President Obama is making the same mistake 
of deciding on troop levels based on arbitrary timelines and 
without defining the underlying objectives, strategy, and 
mission. This is backwards. The strategy drives the troop 
requirements, not the other way around.
    In my office last week, General Dunford and I discussed the 
need to have capability to support the Afghanistan National 
Security Forces (ANSF) and counterterrorism efforts in all 
regions of Afghanistan in an area four times the size of my 
State of Oklahoma. When making decisions about our mission in 
Afghanistan, the President should listen more to his 
professional military commanders on the front lines and less to 
the political advisors in the West Wing.
    General Mattis told this committee that he recommends 
approximately 20,000 troops remain in Afghanistan after 2014. 
That would be about 13,600 U.S. troops, about half that many 
international forces. Our commanders tell me the mission should 
be to continue counterterrorism efforts and to train and advise 
ASF. For those missions across Afghanistan, they tell me that 
8,000 to 12,000 troops is an unreasonable target. The fact that 
this administration has floated the idea of zero troops is 
patently irresponsible.
    A force of only 10,000 will barely be able to protect 
itself and would likely result in ceding the city of Herat to 
Iranian authorities, which is a scary thought, and the city of 
Mazar-e-Sharif in the north to drug traffickers and warlords. 
On my frequent trips to Afghanistan, I have seen the progress 
improve professionalization of the ANSF. The increased ability 
of the Afghanistan forces to lead security operations gives me 
hope, but also makes clear that the job of training, advising, 
and assisting is far from complete.
    The number and types of ANSF sustained past 2014 needs to 
match the security conditions on the ground. To be successful, 
they have to be able to maintain both the security and the 
confidence of the Afghan people.
    I look forward to General Dunford's recommendation on the 
number of Afghan forces that are needed in the post-2014 
environment. From my previous discussions with General Allen, 
General Mattis, and General Dunford, it is obvious that the 
right level is closer to the 352,000 than it is to the 230,000, 
at least through 2018.
    Although I am intently focused on the post-2014 security 
environment, I am mindful that the 2013 and 2014 fighting 
seasons are critical to setting conditions for success, and I 
worry that inadequate funding will erode the fighting 
capability of our troops on the front line. The President's 
budget proposal last week fails to address the unprecedented 
resource challenges facing our military and will hurt the 
readiness of our military.
    To preserve our foreign combat capabilities in places like 
Afghanistan and North Korea, the Navy is tying up carrier 
strike groups at the pier. The Air Force is grounding squadrons 
of combat aircraft, and the Army is cancelling brigade size 
combat training rotations. The effect of this deteriorating 
readiness will be felt by the fighting forces in 2014, the men 
and women we send into combat in Afghanistan next year. The 
President must set aside political posturing and get serious 
about working with Congress on the lasting solution to the 
challenges facing our military. The troops fighting for this 
Nation deserve nothing less.
    I thank you very much, General Dunford, for all of your 
activity and your service. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    General Dunford, welcome.

STATEMENT OF GEN. JOSEPH F. DUNFORD, JR., USMC, COMMANDER, U.S. 
                       FORCES-AFGHANISTAN

    General Dunford. Good morning, Chairman Levin, Ranking 
Member Inhofe, distinguished members of the committee, I 
appreciate the opportunity to appear before you this morning 
and represent the men and women of U.S. Forces-Afghanistan. 
Thanks to your leadership and support, they are well-trained 
and well-equipped. Their extraordinary courage and performance 
reflects that support.
    U.S. Forces-Afghanistan remains focused on denying safe 
haven in Afghanistan to the al Qaeda terrorists who attacked 
our Nation on September 11, and denying the Taliban, who 
harbored them, the ability to overthrow the Afghan Government. 
We recognize that our national interests in the region are 
served by a secure and stable Afghanistan at peace with its 
neighbors.
    I appear before you this morning confident in the cardinal 
direction of the campaign. My confidence is based on the very 
real progress we have made since the surge of forces that began 
in late 2009, and that surge allowed us to move the campaign 
forward. The constant pressure we have exerted on the remnants 
of al Qaeda in Afghanistan has disrupted their ability to plan 
and conduct operations against the West.
    Our coalition Afghan partner operations have pushed the 
Taliban away from the populated areas and prevented them from 
meeting their campaigns objectives in 2012. While they remain 
resilient, they are less of an existential threat to the Afghan 
Government than they were in 2011. Most significantly, our 
efforts since 2009 have provided the Afghan forces the time and 
space necessary to grow and assume the lead.
    As the chairman mentioned, today the ANSF has recruited and 
fielded most of its authorized strength of 352,000. They are 
leading approximately 80 percent of all combat operations being 
conducted, and they have the lead security responsibility for 
territory where nearly 90 percent of the population lives. 
Later this spring, in line with the plan outlined at Lisbon and 
Chicago summits, Afghan forces will be in the lead for combat 
operations across the Nation.
    Today's hearing truly comes at an inflection point in the 
Afghan campaign, and there are many reasons to be optimistic. 
That said, there are several significant challenges we must 
overcome to meet our objectives.
    Up to this point, it is fair to say we are focused on 
growing the size of the ANSF. We are now focused on improving 
the quality of the ANSF. In the months ahead, we will continue 
to focus on a wide range of issues to include leadership 
development, ministerial capacity, aviation, and the systems, 
processes, and institutions needed to sustain a modern 
professional force.
    In the coming months, we will also need to address very 
real political and psychological factors that will affect the 
outcome of the campaign. With regard to political factors, we 
are at a point in the campaign where there is real tension 
between increasing aspirations of Afghan sovereignty and the 
reality of operations conducted in accordance with the U.N. 
Security Council mandate, the law of armed conflict, and the 
military technical agreement. Properly managing that tension is 
now a campaign imperative. The psychological aspect of the 
campaign is equally important right now. Psychology will 
influence the performance of the Afghan forces this summer and 
affect the critical elections of 2014.
    We confront growing uncertainty in Afghanistan and in the 
region. Many Afghans have told me they no longer fear the 
Taliban as much as they fear what will happen after 2014. One 
Afghan described it as the Y2K effect. There is a growing sense 
that December 2014 is a cliff for the Afghan people. That 
dynamic must be addressed with a credible, compelling narrative 
of U.S. commitment. Absent confidence and the hope for a 
brighter future, Afghan leaders, the Afghan people, and 
regional actors will continue to hedge and plan for the worst 
case. The behavior associated with that mindset has the very 
real potential to undermine the campaign.
    In closing, there is a great deal to be optimistic about at 
this point, but we are in the decisive phase of transition. The 
progress we have made to date provides real opportunity, but 
not inevitability. There will continue to be challenges that 
will test our will and endurance. But in the end, if we define 
winning as completing political and security transition while 
rendering al Qaeda operationally ineffective. If we define 
winning as setting the conditions for the Afghans to exploit 
the decade of opportunity that will begin in 2015, I firmly 
believe we can win.
    Thank you again for the opportunity to appear before you 
this morning. I look forward to your questions.
    [The prepared statement of General Dunford follows:]

        Prepared Statement by Gen. Joseph F. Dunford, Jr., USMC

          AFGHANISTAN: PROGRESS, OPPORTUNITIES, AND COMMITMENT
                 WHERE WE ARE--STATE OF THE ENVIRONMENT

    The conflict in Afghanistan has now shifted into a fundamentally 
new phase. For the past 11 years, the United States and our coalition 
allies have been leading combat operations. Now the Afghans are taking 
over, and ISAF is stepping back into a supporting role. The progress 
made by the ISAF-led surge over the past 3 years has put the Government 
of the Islamic Republic of Afghanistan (GIRoA) in control of all 
Afghanistan's major cities and 34 provincial capitals, and driven the 
insurgency away from the population. ISAF's primary focus is now 
shifting from directly fighting the insurgency to supporting the Afghan 
National Security Forces (ANSF) in their efforts to hold and expand 
these gains.
    The progress made by the ANSF enabled President Obama and President 
Karzai to agree at the January Summit that Milestone 2013--Afghan 
security lead throughout the country--will be announced later this 
spring. This announcement will mark ISAF's official transition to its 
supporting role: fully focused on training, advising, and assisting the 
ANSF. In fact, this transition has largely taken place. The ANSF are 
now leading the vast majority of operations countrywide. ISAF 
casualties are lower than they have been since 2008. The majority of 
ISAF bases have been transferred to the ANSF or closed, and 
construction is complete on the majority of ANSF bases. The United 
States will redeploy 34,000 troops by February 2014, and the ANSF have 
grown to nearly 352,000 personnel. Afghanistan's populated areas are 
increasingly secure, and the ANSF have successfully maintained security 
gains in areas that have already been transitioned. Still, the ANSF 
will continue to need training, advising, and key combat support from 
ISAF, including close air support, logistics, and intelligence, through 
the end of the ISAF combat mission in December 2014.
    However, security challenges remain. The insurgency's sanctuaries 
in Pakistan, limited GIRoA institutional capacity, and endemic 
corruption remain the greatest impediments to long-term stability and 
sustainable security in Afghanistan. ISAF will continue to work with 
GIRoA to address its challenges in order to deliver effective 
governance to the Afghan people.

                    WHERE WE ARE--STATE OF THE ANSF

    The ANSF are at the forefront of the fight and are now responsible 
for maintaining and expanding security in the face of the insurgency. 
Despite the early recognition that Afghan security would depend on 
indigenous security forces, building the ANSF lagged in the initial 
years after we forced the Taliban Government from power. In late 2009, 
a concerted effort to grow the ANSF was initiated with the goal of 
generating and fielding trained and equipped Afghan combat elements and 
getting them into the fight. Unit partnering between Afghan and ISAF 
forces--enabled by the U.S. troop surge ordered by President Obama--
provided the ANSF the space to develop combat capabilities and 
leadership skills from the tactical level on up. GIRoA and ISAF 
deliberately focused first on ANSF growth (force size), followed by the 
development of enablers and the professionalization of the ranks. This 
decision was made with a full understanding that the ANSF, once built 
to size by 2012, would experience some initial shortfalls in equipment, 
logistics, personnel, and leadership--foreseeable challenges that would 
be overcome in the 2012-2014 period as Afghan knowledge, capacity, and 
experience increased.
    Moving into the 2013 fighting season, the insurgency now confronts 
a combined ANSF and Afghanistan Local Police (ALP) force of over 
350,000 personnel who have secured over 87 percent of Afghanistan's 
population, and are leading 80 percent of all conventional operations. 
These forces are operating with growing confidence, improved 
leadership, warfighting capability, and a vision for the future. They 
are a source of security, confidence, and pride for the Afghan people--
factors the insurgents must consider as their influence and 
effectiveness in Afghanistan wanes.
    As of early 2013, most of our coalition partnerships with the ANSF 
have evolved into advise and assist relationships; these relationships 
are designed to provide tailored support and to continue increasing 
ANSF confidence and capabilities. Those advisory roles are designed to 
evolve and reduce over time until ANSF units can fully stand on their 
own in a sustainable manner.
    The ANSF continue to improve at a steady pace with marked quality 
increases seen in units capable of conducting independent operations. 
Over the last year, only 1 of the 23 Afghan National Army (ANA) brigade 
headquarters was conducting independent operations. Today the ANA has 1 
corps/division headquarters, 5 brigade headquarters, and 27 battalions 
(4 of the 27 are garrison support units) capable of operating 
independently. The growing ANA Special Operations Command (ANASOC) has 
also made strides towards becoming an independent and effective force--
with the vast majority of ANA Special Operations Forces (SOF) missions, 
to include night operations, being Afghan-led.
    Evidence of the ANSF's growing capacity to conduct their own 
increasingly sophisticated operations can be seen in Laghman, Kabul, 
and Paktika provinces. Here, the ANSF have implemented the layered 
security concept that decreases vulnerabilities in any single arm of 
the force by leveraging the capabilities of the entire ANSF (e.g. ALP, 
ANASOF, ANA, Afghan National Police (ANP), Afghan Border Police (ABP), 
National Directorate of Security (NDS), etc.), providing security to 
the Afghan people with minimal assistance from the coalition. This 
``web'' of enduring security starts locally, then spreads from the 
bottom up to the population centers, through the rural areas, and out 
to the borders.
    Layered security consists of all ANSF elements having a defined 
role within an established network, each one responsible for a specific 
security operation's focus defined geographically (Border, Village, 
District, Province), or by other objectives outlined in a security 
strategy. For example, a layered security operation might consist of 
the Afghan Uniformed Police (AUP) patrolling a population center and 
its highways, while the ABP provides an outer security layer by 
controlling border crossings. Simultaneously, the ANA conduct combat 
patrols and operations based on NDS intelligence providing a security 
layer in between the border and population center. Command, control, 
coordination and intelligence for the entire layered security operation 
is conducted at the Operational Coordination Center (OCC). The OCCs are 
designed to manage and disseminate information and intelligence 
proactively or in response to an incident, and laterally share 
information that enables rapid joint action at the provincial level and 
below. This integrated combination of information sharing, decision 
support, and the ability to direct operations makes it more difficult 
for criminals or insurgents to succeed. The Afghan ability to implement 
this layered security environment will increase once the Afghan Air 
Force (AAF) becomes fully capable. This ANSF collective effort is an 
example of how Afghans have taken responsibility for their own security 
and are making marked and sustainable progress on the ground.
    In the last year, the coalition has begun transitioning districts 
and provinces in the east and south. There have been setbacks during 
these operations, as we expected in any transition as dramatic as the 
ones described above. But, the Afghans are learning from their mistakes 
and are pressing on to become increasingly independent and effective. 
This is a part of a larger story of resilience and resolution. 
Throughout last summer and fall, the ANSF fought increasingly on their 
own, with decreasing enabling support from U.S. and coalition forces. 
In Kandahar's Zharey District, for example, we reduced U.S. troops from 
3,500 to 300 last October. Afghan soldiers are now patrolling 
independently and attacks have not increased. We estimate that the 
number of Taliban fighters have fallen from 900 to 100. In neighboring 
Panjwai District, local villages have risen up against the Taliban and 
their harsh tactics. When they did, Afghan police quickly reinforced 
the villagers, enabling them to survive a Taliban counterattack.
    In another branch of the ANSF, the Afghan Air Force's (AAF) 
emerging capability was recently demonstrated in Regional Command (RC)-
East, where winter flight missions were successfully conducted to 
resupply the ANSF at forward operating bases in Nuristan Province. In 
another example, the AAF provided direct support to the ABP mission to 
supply local villages and secure contested territory in RC-South. While 
many challenges remain, the progress across the ANSF has been genuine 
and is already creating a significant impact on both the physical and 
psychological aspects of the fight.

ANSF Challenges and Gaps in 2013
    Having realized the initial goal of growing and equipping the ANSF 
into an organization that will be capable of assuming the lead security 
role, we have shifted emphasis to building capacity and fielding more 
complex and technologically advanced capabilities. ANSF progress 
towards advanced capabilities has been measured. Significant gaps in 
some ANSF capabilities persist. The ANSF will continue to require ISAF 
support in areas including battle command, intelligence fusion, 
logistics, casualty evacuation (CASEVAC), Counter-Improvised Explosive 
Device (C-IED), surface fires, engineer and explosive ordnance, and 
aviation. Current ISAF support and the subsequent Resolute Support 
mission (the NATO post-2014 mission) force must take a tailored 
approach to provide train, advise, and assist support focused on very 
specific capabilities to maintain the current ANSF development 
trajectory.
    The ANSF have made some progress in enablers such as logistics and 
they are increasingly taking responsibility for distribution, 
maintenance, ammunition management, fuel, and other classes of supply 
at the national and regional logistics nodes and institutions. ANSF 
intelligence capability has seen improvements. ANA Military 
Intelligence Companies with human intelligence, signals intelligence, 
and counterintelligence sections are currently integrated at the Corps 
level to support several ANSF mission sets. The Afghan Air Force is 
improving its ability to provide air support to the ANSF. These and 
other capabilities that need further development have been identified 
for inclusion in the current ISAF and subsequent Resolute Support 
train, advise, and assist effort. Capabilities that will require 
continued development after 2014 include aviation, explosive ordnance 
disposal, engineer, and personnel management. While not exhaustive, 
current capability gaps include:

        <bullet> The need for continued assistance with planning, 
        coordination, fire support integration, control of CAS, 
        intelligence, medical evacuation, and command and control, as 
        highlighted by the recent 209th Corps Operations in Badakhshan.
        <bullet> Intelligence sharing exists, but is not a capability 
        that has been cultivated and standardized across the ANSF. 
        Information sharing between the NDS and ANA remains uneven. In 
        an effort to cultivate intelligence sharing, the ANSF 
        Operational Coordination Centers are increasingly focused on 
        facilitating intelligence sharing at the regional and 
        provincial levels, where we see some success. However, despite 
        the progress, ANSF commanders tend to rely on what they are 
        most familiar with, such as tactical-level source operations 
        and intelligence sharing based on personal relationships.
        <bullet> The AAF will require increased capability and capacity 
        going into 2015 due to late equipment fielding, contracting 
        problems, and personnel shortfalls. ISAF currently predicts 
        that this gap will exist through 2016. Coalition advisors will 
        continue working to build sufficient fixed-wing, rotary-wing, 
        close-combat attack, and intelligence air platform 
        capabilities.
        <bullet> While route clearance and explosive ordnance disposal 
        (EOD) capabilities continue to improve throughout the ANA, 
        significant challenges exist for generating fully manned, 
        trained, and equipped EOD teams. The majority of ANSF 
        casualties come from IEDs. As of February 2013, the ANA has 
        only 59 validated EOD teams out of an authorized 230, and the 
        ANP has 14 validated teams out of an authorized 88. This gap 
        will likely endure through 2015 and beyond.
        <bullet> ANSF personnel issues, like that of many militaries, 
        are varied and range from shortages, literacy, retention, 
        attrition, and desertion. The ANSF continue to suffer from 
        noncommissioned officer (NCO) shortages. The ANA requires over 
        10,000 NCOs, while the ANP requires over 5,000. In the ANA, the 
        core limitations in NCO generation remain the limited number of 
        functionally literate applicants. Just as in many regional 
        armies, the professionalization of the ANSF NCO corps has not 
        yet occurred, with NCOs being underrepresented across the 
        forces and lacking authorities required to effectively lead 
        troops.
        <bullet> Attrition within the ANA also continues to be a 
        significant challenge, creating a burden on recruiting and 
        training structures. The ANA's sustained high attrition rates 
        remain a significant concern and threaten the growth and 
        development of a professional, competent, and capable force. 
        Vacancies are not always filled quickly or with properly 
        trained personnel, presenting challenges for units at the 
        operational level. Furthermore, attrition creates a burden on 
        recruiting and training assets, increasing the overall cost of 
        the force. The ANA attrition rate continues to exceed the 
        monthly target rate of 1.4 percent; for the last year the 
        monthly average was 2.7 percent per month. This attrition rate 
        equates to the loss of around 5,000 personnel per month or 
        60,000 per annum. The ANA leadership tracks attrition data and 
        the reasons most often cited for leaving the army are issues of 
        leadership, family separation, leave, and operational tempo. 
        Since many of the underlying issues with attrition pertain to 
        leadership, Minister of Defense Mohammadi formed an Evaluation 
        Commission to assess his commanders, and if need be, replace 
        unsatisfactory leaders from battalion through corps levels.

Mitigation Efforts into 2014
    In most battlefield enabler and functional areas, ANSF capabilities 
will never equal those of the coalition. But parity between coalition 
and Afghan forces is not necessary for the requirements of Afghan 
security, and is therefore not the right measure of Afghan 
capabilities. In most areas, the ANSF will do things differently than 
the coalition has done them. They will utilize different tools and 
techniques to achieve the same net effect. Indirect fires, for example, 
can be provided by mortars rather than close air support; CASEVAC can 
be accomplished by ground rather than air; and planning will be 
accomplished in an Afghan way. In some cases, too, the ANSF may simply 
choose not to do some things that they would have undertaken while 
partnered with us. But it is a mistake to discount organic Afghan 
capabilities and techniques because they do not meet Western 
standards--the ANSF have other advantages (local familiarity with the 
culture and terrain, in-depth understanding of their enemies tactics 
and techniques, ingenuity, etc.) that they can leverage to defeat the 
security challenges they face. These organic capabilities and methods 
will most often be sufficient to preserve their own confidence and that 
of the Afghan people. Where the ANSF lack sufficient independent 
capability, we will continue to provide security force assistance to 
close the gaps until such time as the Afghans are able to provide their 
own capacity and capabilities for themselves.
    Although the ANSF are developing solutions to provide needed 
enabler capabilities, continued support will be required for the 
foreseeable future. We have developed a tailored plan to accelerate key 
enablers as a part of transition to help improve the future self-
sufficiency of the ANSF to protect the Afghan population, manage 
violence, and contain the insurgency through sustained layered security 
operations. We anticipate most of these enablers to be fielded by the 
end of 2014 with capability development continuing through the Resolute 
Support mission.

                 WHERE WE ARE--STATE OF THE INSURGENCY

    U.S. and coalition forces, working side by side with our Afghan 
partners, have reversed the insurgency's momentum and pushed insurgents 
out of population centers. By the end of last year's fighting season, 
the ANSF and ISAF had deprived the insurgents of key safe havens, 
command and control nodes, and support zones. They are now less 
capable, less popular, and less of a threat to the Afghan Government 
than a year ago.
    Despite this degradation, safe havens in Afghanistan and 
sanctuaries in Pakistan continue to provide Taliban senior leadership 
some freedom of movement and freedom of action, facilitating the 
training of fighters, and the planning of operations. The Afghan 
Taliban and all its sub-groups, including the Haqqani Network, remain 
capable of conducting high profile attacks, though counterterrorism 
pressure has degraded this ability. However, the Taliban remain firm in 
their conviction that ISAF's drawdown and perceived ANSF weakness, 
especially when supplemented with continued external support and with 
sanctuary in Pakistan that the Taliban exploit, will translate into a 
restoration of their pre-surge military capabilities and influence.
    Sustained counterterrorism operations have also eliminated dozens 
of al Qaeda enablers and exerted pressure on al Qaeda personnel, 
restricting their movement to isolated areas of northeastern 
Afghanistan. Despite effective counterterrorism pressure on al Qaeda 
and its Taliban enablers, and on the small number of al Qaeda fighters 
in Afghanistan, al Qaeda's relationship with local Afghan Taliban 
remains intact.

                               CHALLENGES

Establishing a Constructive ANSF-Pakistan Military Relationship
    The security, especially along the border, of Afghanistan and 
Pakistan is an interdependent issue that requires a cooperative effort 
between the two countries.
    The Afghanistan-Pakistan relationship has ebbed and flowed over 
time, but both nations acknowledge that stability in Afghanistan 
impacts Pakistan and vice versa. The unresolved border issues between 
Afghanistan and Pakistan are a historical source of friction between 
the two countries. Actions by both sides exacerbated this friction and 
contributed significantly to the loss of trust necessary for a 
meaningful relationship between each country's military forces. Last 
fall, as a step toward improving this relationship, ISAF led the 
development of a Tripartite Border Standard Operating Procedure. This 
document is designed to improve cross border coordination between ISAF, 
the ANSF, and the Pakistan military. ISAF continues to work to improve 
the cooperation, participation and commitment of the Afghans and 
Pakistanis.
    Recently the ANSF established a more robust Tripartite Joint 
Operations Center in Kabul, providing general officers on both sides 
with direct access to their respective Ministries. Ongoing Border Flag 
Meetings continue to address border issues and are key to develop and 
improve cross-border relations. While we see some initial progress, 
serious challenges remain. Our goal remains to develop the trust 
necessary between the two countries so that they will eventually be 
able to maintain a constructive bilateral military-to-military 
relationship.

Insider Threat
    One tactic the insurgents use to sow distrust and attack our 
resolve is infiltration in friendly forces for the purposes of 
attacking from the inside, sometimes described as ``Green on Blue'' or 
``Green on Green'' attacks. We recognize the insider attacks are a 
threat to Afghan and coalition forces and take this issue very 
seriously. ISAF is a learning, adaptive organization, and we have 
devoted a tremendous amount of time and energy to better understand 
this threat. Together, ISAF and the Afghan Government have undertaken 
numerous measures to reduce the risk of insider attacks, including 
improved vetting and screening, counterintelligence, and cultural 
awareness. We are constantly refining our approach.
    Our actions are based upon the three pillars: Force Protection, 
Situational Awareness, and Counter-Intelligence (CI). Our Force 
Protection (FP) efforts include the assignment of a dedicated FP 
Officer to provide a daily risk assessment and adjust FPO measures as 
appropriate. We have also instituted guidance to employ Guardian Angels 
to prevent insider attacks or reduce the effects of these attacks. We 
have brought in outside support to provide Insider Threat Situational 
Awareness Training with mobile training teams. These teams provide a 
sophisticated understanding of Human Behavior Pattern Recognition 
Analysis, helping to identify predictive indicators of potential 
insider attacks. Our final pillar encompasses the expansion of our CI 
teams for both the coalition and Afghan National Army; we have 
accomplished this by employing additional resources from Allied Command 
Counter-Intelligence, while the Afghans have transferred CI personnel 
from the Ministry of Interior and National Directorate of Security over 
to the Afghan National Army.

Civilian Casualties
    The protection of the Afghan population remains a top ISAF 
priority, and avoidance of civilian casualties is one of ISAF's highest 
priorities. We have taken significant actions over the past year to 
minimize these tragic events. As a result, ISAF-caused civilian 
casualties have been reduced by almost half in comparing 2011 to 2012. 
These casualties are, rightly, a concern to the people and the 
President of Afghanistan. We are working with the GIRoA to further 
reduce ISAF-caused civilian casualties and maintain the trust and 
support of the Afghan Government and the Afghan people.
    ISAF continues to work closely with its Afghan counterparts to 
ensure accurate and timely reporting of civilian casualties. Supporting 
security transition is the transfer of responsibility for civilian 
casualties avoidance and mitigation measures, procedures, and 
capabilities to the ANSF. In order to support effective protection of 
the Afghan population, in December the Ministry of Defense hosted its 
first Population Protection Conference to discuss and address these 
issues.

Lessons Learned
    Detention Facility in Parwan
    The transfer of the Detention Facility in Parwan to the Afghan 
Government reaffirmed Afghan sovereignty, while preserving our force 
protection requirements. Now known as the Afghan National Detention 
Facility-Parwan, the facility represents an emerging sense of 
sovereignty for the Afghan people, allowing them to assume 
responsibility for the detention and prosecution of detainees under the 
authority of the Afghan constitution. During the transfer ceremony, 
GIRoA officials highlighted their responsibilities for detention 
operations in accordance with the Afghan rule of law, due process, and 
international standards for the humane treatment of detainees. While 
the day represented a transfer of authority, there is still work in 
progress to transition the management functions of the facility. We 
still have an appropriate presence at the facility in support of Afghan 
forces. We will continue to train, advise, and assist the Detentions 
Operations Command, the Afghan Review Board process, and the Justice 
Center at Parwan as Afghanistan's capability to operate independently 
fully develops.
    We did not arrive at this juncture overnight; the original 
Memorandum of Understanding was signed on March 9, 2012, and it took a 
year of continued work at the facility to build sufficient Afghan 
capacity and capabilities to finalize the transfer of authority--that 
work continues as we mark another milestone in the transition of this 
mission. The Agreement that determined the final requirements for the 
transfer reaffirms our mutual commitment to the lawful and humane 
treatment of detainees, while ensuring proper protection of Afghan, 
U.S., and coalition forces. This transfer improved our strategic 
partnership with Afghanistan, sets the stage for increased cooperation 
in the broader transition framework, and fulfilled the pledges made by 
President Obama and President Karzai during their joint statement in 
January.

                                 ISSUES

Elections in 2014
    A peaceful and successful transition of the Afghan Presidency in 
2014 will be a crucial step toward a confident, secure, and stable way 
ahead in Afghanistan. Elections must be seen to be inclusive, free, and 
fair to the Afghan people. A successful political transition is also a 
precondition for the continued flow of resources as described in the 
Tokyo Mutual Accountability Framework. Donor confidence and sustained 
flow of pledged funding are critical for continued progress in a stable 
Afghanistan. ISAF will support the ANSF as they provide security for 
the elections process.

Force Posture
    As the Campaign transitions in the coming 20 months to the Resolute 
Support train, advise, and assist mission in support of the ANSF, we 
will also be redeploying U.S. forces to reach our 34K force structure 
by February 2014 and retrograde equipment. Following that, we will 
further redeploy forces to a level yet to be determined by the end of 
2014. Although challenged by geography, weather, and occasional 
disruptions in the land routes, we can complete retrograde and 
redeployment of U.S. Forces from Afghanistan. We have sufficient 
transportation capacity to meet redeployment and retrograde 
requirements. The combined capabilities of the Multi-Modal (M/M) 
network, the Northern Distribution Network (NDN), and the Pakistan 
ground lines of communication (PAK GLOCs) provide redundant 
capabilities to meet our requirements.
    U.S. Forces-Afghanistan (USFOR-A) redeployment and retrograde 
operations began in 2012 with the recovery of surge forces. From 
January 2012 through March 2013, USFOR-A reduced force levels by 28 
percent, reduced U.S. bases by 70 percent, reduced rolling stock 
equipment by 45 percent, and reduced non-rolling stock equipment and 
supplies by 26 percent. We are confident in our ability to successfully 
continue redeployment and retrograde operations through 2014 as we 
transition to the post-2014 mission.
    Contractor Drawdown
    In concert with our mission requirements and overall retrograde and 
base closure/transfer, we are responsibly drawing down the contractor 
footprint, both in terms of personnel and equipment. In August 2012, we 
stood up the Operational Contract Support Drawdown Cell, and tasked 
them with this specific mission, giving particular emphasis to applying 
lessons learned from Iraq. With this cell in place, we put our primary 
focus on the largest contracts in theater and are currently executing a 
plan that will yield a reduction in contractor personnel by 
approximately 25,000 (25 percent) by the end of calendar year 2013. A 
combination of base closure and a further descoping of contract 
requirements will allow us to continue to reduce contractor footprint 
through calendar year 2014. We are also putting great emphasis on 
responsible disposition of contractor-managed government-owned 
equipment in theater. To make this happen, we are collaborating closely 
with Defense Logistics Agency, Defense Contract Management Agency, and 
other key stakeholders to ensure we have a fiscally responsible and 
logistically feasible plan for materiel reduction of this equipment. 
Over the next 21 months, this approach will result in a responsible 
contractor reduction that appropriately balances mission risk with our 
need for retrograde, base closure/transfer, and materiel reduction.
    During this transition, commanders will move to more expeditionary 
standards and balance quality of life, safety, fiscal stewardship, and 
mission. For example, we will reduce our in-theater food stock by 
changing the meal cycle to two Meals Ready-to-Eat and two hot meals, we 
will reduce the use of non-tactical vehicles on our bases, and we will 
begin to descope the services provided to our soldiers and civilians 
such as contract laundry. We will continue to provide wireless internet 
services as long as possible which is important to the morale of our 
force and provides a vital link to their families.

              STEWARDSHIP OF RESOURCES REMAINS A KEY TASK

Afghan Security Force Funds
    A critical tool in our efforts to support the development of the 
ANSF has been the use of the Afghanistan Security Forces Fund (ASFF) 
which provides the resources required to train, sustain, and equip a 
force of 352,000 Afghan soldiers and police as well as 30,000 Afghan 
local police. A combination of ongoing Department of Defense reviews, 
Department of Defense reprogramming, and congressional reallocation 
reduced the original fiscal year 2012 request from $12.8 billion to 
$9.2 billion. ASFF received $5.1 billion in fiscal year 2013 against a 
request of $5.7 billion. This reduction will result in the delay in 
deploying some needed enabling capabilities. The fiscal year 2013 
budget shifted emphasis from building, equipping, and training to 
professionalizing and sustaining the force. It will include some key 
enabler builds as well as equipping and infrastructure requirements for 
the Afghan Air Forces and Special Operations Forces as they continue to 
build their capabilities.

Commander's Emergency Response Program
    The Commander's Emergency Response Program (CERP) remains 
important; although it will reduce as our forces reduce. Working 
collaboratively with the Special Inspector General for Afghan 
Reconstruction and the Army Audit Agency, we have made significant 
improvements in policy and execution that provided significant return 
on investment. In fiscal year 2012, ISAF was able to reduce CERP 
projects in both number and scale due to improving security conditions 
and a decreasing requirement for humanitarian relief and 
reconstruction. Even so, the right-sizing of this critical enabling 
program continued to emphasize small-scale, high-impact projects that 
delivered immediate assistance to the local population with 96 percent 
of the projects executed in fiscal year 2012 valued at less than 
$100,000 each and 90 percent under $10,000 each. CERP remains a 
critical tool for our commanders on the ground.

Military Construction
    Despite a dynamic and evolving operational environment, ISAF and 
USFOR-A remain firmly committed to efficiently managing congressionally 
appropriated Military Construction (MILCON) funds to support our 
warfighters. By establishing a deliberate process to review, validate, 
and adapt this multi-billion dollar investment, the command ensured 
effective resource stewardship while providing the quality facilities 
needed by our troops. As a result, since 2011, we have recommended and 
received approval for the cancellation/descope of over 100 MILCON 
projects with an estimated cost avoidance/savings of nearly $1.3 
billion.

Afghanistan Infrastructure Fund
    Afghanistan Infrastructure Fund (AIF) is a Department of Defense 
funding source that uses 2-year funds for the execution of critical 
infrastructure projects in the power, water, transportation, and rule-
of-law sectors. The projects are carefully selected, assessed, and 
coordinated with GIRoA, the U.S. Department of State, and the U.S. 
Agency for International Development to ensure that they are both 
sustainable and congruent with Afghanistan's future infrastructure 
priorities. AIF projects are critical to locking in stability gains and 
providing a foundation for internal economic growth that is less 
reliant on external aid. Nearly all AIF funds (99 percent) are spent in 
the east, south, and southwest areas of Afghanistan where they provide 
positive counter-insurgency effects in support of the ANSF and 
encourage long-term security and stability. In addition, 2-year funds 
enable USFOR-A to execute large, complex projects that were not 
possible with CERP. Most importantly, the AIF program serves as an 
effective counter to the insurgent narrative of abandonment.

                        WHAT WINNING LOOKS LIKE

    Despite the remaining challenges, we can win in Afghanistan. The 
key elements of our success include:

        <bullet> The transition of security responsibility to a 
        confident, self-reliant and sustainable ANSF capable of 
        protecting the population and securing a legitimate Afghan 
        Government.
        <bullet> An operationally ineffective al Qaeda deprived of a 
        safe haven from which to plan and conduct operations outside 
        the area.
        <bullet> An acceptable political transition, defined by 
        inclusive, free, fair elections and Afghan Government adherence 
        to the Mutual Accountability Framework.
        <bullet> A constructive ANSF-Pakistan military relationship.

    We will have reached the end state of our combat operations when 
security conditions are set for the Afghan people to exploit a Decade 
of Opportunity. All of this is achievable--but it is not inevitable. 
Winning in Afghanistan will require us to remain focused on why we are 
there and firmly committed to achieving our objectives.

    Chairman Levin. Thank you very much, General. We will 
follow the 8-minute rule this morning.
    General, I made reference to the media characterization of 
events in Afghanistan. Recent news reports have described a 
number of high profile Taliban attacks that suggest a declining 
security situation in Afghanistan. A Taliban attack and a 
hostage standoff in Farah Province was said to ``highlight the 
crumbling security situation'' and the ``deteriorating security 
situation'' in that western province.
    A Taliban assault on a remote outpost in eastern 
Afghanistan was said to be a ``serious blow'' to one of the 
Afghan army's most elite units. The tragic death of a U.S. 
civilian advisor and five other Americans in an attack in 
southern Afghanistan was said to highlight the ``escalating 
violence'' associated with the Taliban's attempt to regain 
momentum.
    Could you tell us whether in your view those articles, 
those characterizations, taken together provide an accurate 
impression of the security situation in Afghanistan?
    General Dunford. Mr. Chairman, in the aggregate, those 
incidents remind us that we are still at war, and there is 
still violence in Afghanistan. Having said that, it is 
important to note that 80 percent of the violence currently 
occurs where 20 percent of the population lives. By and large, 
the population in Afghanistan has been free from violence. The 
Talibani enemy have been pushed away from the populated areas.
    Each of those incidents that you referred to was a separate 
incident. In Farah, as an example, we know that the enemy at 
this point is relying on high profile attacks, improvised 
explosive devices (IED), and assassination attempts in order to 
achieve their effect because they are unable to influence the 
population in the way that they were a short time ago.
    The issue at the remote outpost that you referred to was 
frankly a breakdown in leadership. It had nothing to do with 
the capabilities of the ASF in the aggregate. In fact, what I 
was impressed with was that the Afghan leadership took 
immediate action against the leadership that were responsible 
for that particular incident. So what we see is increasingly 
ASF and the leadership in the ASF being held accountable when 
they fail to properly perform their duties. In this case, that 
is exactly what happened.
    With regard to the tragic loss of life of our young 
Department of State (DOS) employee, that also indicates what 
the enemy is intent to do in order to erode our will. But in 
general terms, Mr. Chairman, what I would tell you is that that 
does not reflect the level of violence across the country at 
this time. The level of violence has significantly reduced over 
the past 2 years. As I mentioned, the surge had the desired 
effect, and, most importantly, not only has the violence been 
reduced in the populated areas, but that security is currently 
being provided by ASF largely and not coalition forces.
    Chairman Levin. Thank you. General, do you support 
maintaining the ASF at the higher level of 352,000 through 2018 
rather than reducing those forces to 230,000?
    General Dunford. Mr. Chairman, I do support extending the 
352,000. That decision has not been made and it is conditional 
on Afghan negotiations related to the bilateral security 
agreement (BSA) and our enduring presence in Afghanistan, but I 
would support that. It mitigates risk during the period of a 
transition. It mitigates risk during a period of what we 
project to be economic downturn. I think it provides that 
demonstrated commitment that you referred to in your opening 
remarks.
    Chairman Levin. Thank you. General, do you support the 
President's decision to draw down 34,000 of the 66,000 U.S. 
troops from Afghanistan by February 2014?
    General Dunford. Mr. Chairman, I do support it. What is 
critical about the drawdown this year is that it allows us to 
stay engaged at the battalion or Kandak level with the ASF 
during their first summer in the lead. We have the flexibility 
to conduct the drawdown to allow us to stay engaged with our 
train, advise, and assist mission at the appropriate level this 
summer.
    Chairman Levin. There was an article, General, in 
yesterday's New York Times about the threats that are faced by 
many Afghans that spent the last 11 years, or part of the last 
11 years, helping us in Afghanistan by interpreting so that we 
could proceed more effectively in Afghanistan. These 
interpreters are supposed to be protected by a visa program, 
which I remember very vividly that Senator Kennedy and many of 
us worked very hard to achieve.
    Can you personally take whatever steps you are able to take 
to make sure that those visas are provided as contemplated by 
law?
    General Dunford. Mr. Chairman, we owe a tremendous debt of 
gratitude to the interpreters that have supported us over the 
last 11 years. It is fair to say we could not have accomplished 
the mission without them, so I would fully support that.
    What we are doing now on the ground is ensuring that their 
applications make it through the process, at least through the 
U.S. embassy, and come back here to Washington, DC. We are 
personally tracking those on an individual basis, in many 
cases, to ensure that those interpreters who most deserve to 
come to our country can do that. But I absolutely would support 
that.
    Chairman Levin. Will you take whatever steps you can with 
DOS, beyond what you have already done, to tell them that it is 
really important to our security, and to what our security 
demands have been, that those visas be forthcoming?
    General Dunford. I will do that, Mr. Chairman.
    Chairman Levin. We will also be writing a letter to the DOS 
relative to that matter.
    In terms of our relations with President Karzai, did we 
recently work out an agreement with President Karzai in a 
province where he said that our Special Operations Forces (SOF) 
would have to leave within 2 weeks? Did we get that 
straightened out so that, in fact, we worked out an acceptable 
agreement, a mutual agreement?
    General Dunford. Mr. Chairman, we did. That was the Wardak 
Province. In February, President Karzai had directed that all 
U.S. Special Forces be removed from the province. That was as a 
result of allegations that proved to be unsubstantiated.
    At the time President Karzai gave us that direction, I let 
the President know that that would be unacceptable both from a 
force protection perspective and from our ability to accomplish 
our objectives. He afforded us the opportunity to work with the 
Minister of Defense and Minister of Interior and come up with a 
transition plan for the Wardak Province. Since that time, we 
have removed U.S. Special Forces from one district inside of 
that province. There are nine districts in the province. We 
removed SOF from one of those districts, and we replaced them 
with effective ASF.
    So in honesty, Mr. Chairman, what I told President Karzai 
when that was over, frankly that turned out to be a model for 
transition. We had broad guidance from President Karzai. We 
were able to work with the Minister of Defense and Minister of 
Interior to transition. It is exactly what is happening across 
the rest of the country. We are in the process of transitioning 
from provinces, and so this particular incident worked out. 
From my perspective, we have an effective solution.
    Chairman Levin. I might just note that President Karzai 
made a statement, and it got huge publicity. But when the 
resolution was achieved by you and the Afghans, it got very 
little publicity. I am afraid that is too typical of what the 
media situation is here.
    My final question is on Pakistan. You met with General 
Kayani, the chief of the Pakistan army staff, also with Afghan 
military leaders, I believe. It was a trilateral meeting. Can 
you tell us what your assessment is of Pakistan's current role 
as to whether they have in any way changed their behavior in 
terms of ending the safe havens that exist in Pakistan that 
have been used to attack our forces, Afghan forces?
    General Dunford. Mr. Chairman, at this point I could only 
tell you that the rhetoric from Pakistan has changed. General 
Kayani has pledged cooperation. We have seen at the tactical 
level increased levels of cooperation since the fall. We did 
sign a trilateral, tripartite border agreement between 
Afghanistan and the coalition and Pakistan in November. We have 
conducted an exchange of officers. I have a Pakistani liaison, 
flag officer, in my headquarters. We have several Pakistanis in 
our headquarters to deconflict border issues.
    We have seen increased cooperation on the ground lines of 
communication as we have tried to move our equipment back and 
forth through Pakistan. General Kayani has pledged that we will 
meet with him on a monthly basis individually, and we also will 
have routine meetings at the trilateral level with Afghan 
leadership, as well as General Kayani.
    So the rhetoric and the degree of our engagement has 
increased. We are still obviously concerned with the results, 
and I think there is still some time to see before we can make 
a judgment on that.
    Chairman Levin. Would you give us an update by the end of 
May as to whether that rhetoric has been followed by any change 
in action? Could you give us that--just send us a report by the 
end of May?
    General Dunford. I will do that, Mr. Chairman. Just so you 
know, President Karzai and I think it is significant. I 
proposed and he approved 2 weeks ago to have General Kayani and 
the senior leadership from Pakistan come to Kabul and attend a 
meeting hosted by us with the minister of defense from 
Afghanistan and the chief of the general staff from 
Afghanistan. This is a significant step forward. I will be able 
to report on that in May.
    [The information referred to follows:]

    Our regular engagement with the Pakistani military leadership on a 
number of bilateral and trilateral issues (involving Afghan leaders) 
continues, and we have achieved some positive effects through those 
engagements. Most notably, our efforts to bring senior Afghan and 
Pakistani military officers together to discuss issues related to the 
contested border between the two countries have reduced tensions. In 
early May, a series of tri-lateral meetings prevented what may have 
become a more significant distraction--not only for the campaign in 
Afghanistan but for Pakistani security forces during that country's 
historic election of a new civilian government.
    However, as yet, we have not witnessed a demonstrable shift in 
Pakistani willingness to address the persistent challenge of insurgent 
safe havens. This is undoubtedly due, at least in part, to the domestic 
security requirements related to Pakistan's presidential elections and 
the military's focus on limiting violence and guaranteeing the 
population's right to participate in the democratic process. With a new 
government forming and preparing to take power, we will remain closely 
engaged with our Pakistani counterparts, encouraging them to follow 
through on their commitment to address threats to our mutual security. 
That said, there is a growing realization within the military 
leadership that insurgents and terrorists pose an increasing problem 
that destabilizes Pakistan. However currently, Pakistani efforts are 
focused only on the direct threat posed by Terik-e-Taliban.

    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    As I told you in my office, General Dunford, it is hard for 
me to believe that it has been 10 years since we started our 
active training of the Afghan National Army (ANA). The reason I 
am particularly sensitive to that is that this began with the 
Oklahoma 45th Infantry Brigade, their first duty over there, 
and I spent quite a bit of time there at that time. That is 
what kicked it off.
    Then later on with the Kabul Military Training Center, that 
is so incredibly impressive. It is almost like you are looking 
at Fort Sill, and the resources they have and who has taken 
that over. On any given day, there might be 10,000 ANA trainees 
crawling through the mud and busting down doors. That facility 
is now 20,000 acres, I think.
    My concern is that, with the changes that we are talking 
about in this hearing today, is that going to negatively impact 
this real success? I think the chairman here talked about the 
great successes that we have had over there, and I agree with 
that. But one of the successes is in that training capability, 
and that particular center, you have spent a lot of time there, 
I am sure. Is that going to suffer at all with the changes that 
we are looking at now?
    General Dunford. Sir, what is important, and I think you 
are alluding to the post-2014 presence, what is important I 
think when we look at post-2014 are a couple of factors. One is 
geography. I believe we need to be in the four corners of the 
country. Much of the training takes place at regional training 
centers, and it is important after 2014 that we continue to be 
at those regional training centers with an effective advise and 
assist effort.
    The other is the level at which we advise and assist the 
Afghan forces. This summer as we go into the Afghan first 
summer in the lead, they will be advised and assisted at the 
selected battalion level, lieutenant colonel level, the Kandak 
level. As we get to the fall, we will lift off to the brigade 
level, and post-2014, current planning would be either at the 
brigade or the corps level, and that decision has not been made 
yet.
    But in any event, we recognize that what you pointed out is 
critical, and that is we maintain a robust train, advise, and 
assist effort at the training center level. We would expect 
that to be at the institutional training center level in Kabul, 
as well as those four corners of Afghanistan at the regional 
training center. So from my perspective, what is really 
important is as we look at our enduring presence, it would be 
sufficient to address that particular function that you 
referred to.
    Senator Inhofe. I have heard about some of the changes that 
perhaps we are going to make, maybe go into a regional level. 
But that facility is so impressive, I just want to make sure we 
are going to continue it at the level it is now. The number of 
people that are going through to sustain numbers that we talked 
about in this area so far, it is going to be necessary to do 
that. I am sure that you are equally impressed with the 
successes we have had at that Kabul military training center.
    With the elections coming up, it is their constitution that 
causes Karzai to have to drop out, and we know there are many 
areas of the world where they have a constitutional prohibition 
that would require people to stop. Yousemeni comes to mind in 
Uganda. Has there been any talk at all of any kind of an effort 
on his behalf to be able to remain there? I understand there is 
not, but I just wanted to get that into the record.
    General Dunford. Senator, there has not been any public 
discussion about that. In fact, in several meetings that I have 
attended, both one-on-one or with the Ambassador, with 
President Karzai, with Secretary Kerry and Secretary Hagel on 
each occasion, President Karzai has expressed his intent to 
stand down in April 2014. I also attended his address to 
parliament, somewhat equivalent to our State of the Union, a 
month ago where he announced to the parliament that he also 
intended to step down on the April 5, 2014.
    Senator Inhofe. I understand that. Is there any talk about 
who might succeed him?
    General Dunford. Senator, there is a tremendous amount of 
political activity ongoing on in Afghanistan right now, but it 
would be difficult for me to select a favorite at this point.
    Senator Inhofe. There is a history that when rogues are on 
their way out, they clean up their act. Have you seen a more 
positive Karzai than we have seen in the past?
    General Dunford. Senator, over the past 2 months, we have 
worked through very difficult issues, President Karzai and I, 
and we have come in each case to an effective solution. So the 
relationship I have had on the ground over the last 2 months 
has been cooperative.
    Senator Inhofe. I understand that when this takes place, 
when the change takes place, that our intelligence, 
surveillance, and reconnaissance (ISR) activity is going to be 
dramatically reduced. I would ask you, first of all, is that 
really necessary, or do we have the resources to sustain it, 
and should we do that?
    General Dunford. Senator, my perspective is I will need a 
sustained ISR effort post-2014. In fact, there is not a direct 
relationship between the numbers of forces on the ground and 
the ISR effort in that we cannot reduce ISR commensurate with 
the forces. In fact, at the time that we reduce forces, ISR 
actually becomes as important or more important.
    Senator Inhofe. Yes, that was our thinking. We have talked 
about this in the past because they have had several things in 
the media that would reduce proportionally. You make a very 
good point that that actually could be better to increase the 
presence of ISR capability.
    I think you have talked about, the chairman asked the 
question, and you answered the question about the 352,000 
versus the 230,000. I agree with you. Is your feeling agreed 
with by General Mattis and by your other counterparts?
    General Dunford. It is, Senator, but I think collectively 
we also agree that our support for 352,000 for any additional 
enabling support for the Afghans and our sustainability for the 
ASF post-2014 ought to be conditional. It ought to be 
conditional based on Afghan behavior, and so that is part of 
our calculus. But we believe that our interests will be best 
served by extending the 352,000 through 2018.
    Senator Inhofe. Okay. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, General, for your service. I want to associate myself with 
the chairman's remarks about the Boston Marathon. It is 
particularly poignant because it is not just a Boston 
tradition. It is a New England tradition, and so many Rhode 
Islanders participate. Obviously, our sympathy goes out to the 
victims and also our respect for the first responders and 
everyone who helped out. I know you have connections, too. Your 
father is a retired Boston police officer. So thank you for 
that service, too.
    You talked about in your opening comments what success 
might look at in winning. Can you elaborate on that?
    General Dunford. I can, Senator. For the last few years, 
many people have shied away from the using the word ``win.'' I 
personally have used that word since arriving in Afghanistan. 
My predecessor uses that word. I frankly think that when we are 
talking to 18-, 19-, 20-, 21-year-old soldiers, sailors, 
airmen, and marines, we ought to talk in those terms.
    From my perspective, winning is achievable, and I described 
it briefly in my opening remarks. First of all, the transition 
to an ASF lead in affecting security transition in 2014 is an 
important component of winning. I think we have a plan that is 
in place to do that, and I think we can see through 2014 where 
the Afghans can successfully assume responsibility for security 
after 2014, given the projection we make about the security 
environment post-2014.
    Another critical component of our winning would be 
supporting the political process that would lead to inclusive, 
fair, and free elections in 2014. Again, I think that is very 
achievable, and of course, remembering why we went there in the 
first place, an important component of our winning is to ensure 
that we deny sanctuary to al Qaeda in Afghanistan, and we 
contribute to regional stability where we have national 
interests.
    Those three components are important. There are 
subcomponents to include our posturing to force and setting our 
counterterrorism posture post-2014, continuing to sustain the 
ASF post-2014. But if we do those three things--effect security 
transition, affect political transition, and deny al Qaeda 
sanctuary--I believe at the end of 2014, as we transition 
missions, as we change authorities, we can look at the families 
and the soldiers, sailors, airmen, and marines that have served 
over the last 11 years, and say we won because we provided then 
the Afghans the opportunity to seize the decade of opportunity 
that starts in 2015. It very much at that point is up to the 
Afghans to seize the opportunity that we provided them.
    Senator Reed. Thank you, sir. Let us focus on the ANSF and 
a comment that the chairman made. Often their successes are not 
as visible as their lapses and you are on the ground. The 
chairman and I were on the ground in January. We were 
impressed. Recently we have heard of commando operations in 
Anbar Province, which is 203rd Corps successfully operating, 
and Paktika Province.
    It seems to me that the first measure is obviously 
protecting population centers, but then exerting control over 
the entire country. Can you give us your assessment right now 
of the capacity and capability, and maybe even some successes 
that have not been noted by the press?
    General Dunford. Senator, I can. Like many members of the 
committee, I have had many visits to Afghanistan over the 
years. I can remember one visit in particular in 2008 in the 
Helmand Province. At that time, the ratio of Afghans to 
coalition partners, more properly, coalition to Afghans, was we 
had 10 U.S. marines to every 1 Afghan that was in the Helmand 
Province, as recently as 2008.
    The ratio today, of course, across the country is there are 
3 Afghans for every 1 member of the coalition that is serving 
right now, and we have talked about the statistics, the 
percentage of operations they conduct, the percentage of 
population they secure. Most impressive is they are actually 
conducting independent combined arms operations at the brigade 
and the corps level. That is with a minimal amount of advise 
and assist by coalition forces.
    I'll be honest with you, Senator. Even as someone who is 
generally a glass-half-full individual, I could not have 
foreseen that in 2008. I think the progress that we have made 
since 2009 is nothing short of profound in terms of where they 
are on a day-to-day basis. What is really important to note is 
that when we go to Milestone 2013 this summer, and we talked 
about the transition, we are going to have inside of formations 
of 600 or 700 Afghans. We are going to have 16 or 17 members of 
the coalition in an advise and assist role. We will have 
thousands of Afghans providing security in each of the 
provinces--each of the 34 provinces in Afghanistan. We will 
have some few hundred members of the coalition providing advise 
and assist at that level, and then by exception, combat 
support, largely coastal air support, some planning, and some 
logistics capability.
    So when we talk about what the Afghans are doing right now 
and when we talk about the security environment, although we 
formally go to transition at Milestone 2013 later this spring 
and summer, early summer, in fact, on the ground today we are 
at that point already where the Afghans have taken the lead. 
They are providing security for the Afghanistan people, and 
every day they improve a little bit.
    Again, I would caveat by saying that this progress we have 
made from 2009 until today is largely quantity. They are out 
there. They are in a fight. At the battalion level and the 
brigade level, they are certainly very effective. But in order 
to sustain those gains, we still have challenges to ensure that 
at the institutional level, the logistics that we have to 
have--planning, programming, budgeting--those kinds of tasks 
are still the work that remains. But all that addresses the 
quality of the force, the quantity of the force, and their 
ability to take the fight to the enemy on a day-to-day basis is 
real, and it is on the ground today.
    Senator Reed. As the fighting season, which is critical 
this year, is underway already because of the weather 
conditions, the ANSF are planning very aggressive operations 
going forward this summer?
    General Dunford. Senator, they have conducted the planning 
for operations this summer. This has been an Afghan-led 
process. I attended what they called the campaign 
synchronization conference about 6 or 7 weeks ago. I attended 
as a guest with the senior leadership from the coalition. It 
was led by the National Security Advisor, Minister of Defense, 
and Minister of Interior. They outlined their plan--Afghan 
plan--for the summer of 2013. Each one of the corps commanders 
and brigade commanders stepped up and briefed their plan. Over 
the course of 8 or 9 hours, they integrated their planning 
effort for the summer of 2013. So what we are seeing right now 
is very much an Afghan-led, Afghan-executed security plan for 
the summer of 2013.
    Senator Reed. Just a final question. The Afghan local 
police (ALP) have been a component. In fact, as we visited in 
January, touted by our military commanders on the ground as a 
real turning point because it combines not just the military, 
but also a village, a local connection, a governmental capacity 
connection. Can you comment on the future of the ALP?
    General Dunford. Senator, that has been a very successful 
program for the reasons you alluded to. Number one, the 
individuals in the ALP are closely vetted in conjunction with 
local leadership. Number two, it is part of the ANSF 
architecture the ALP work directly for district police.
    In terms of clear, hold, and build, and counterinsurgency, 
it has proven to be the most effective hold force. Frankly, my 
assessment is less relevant than the assessment of the Taliban. 
We know from our intelligence that the most feared organization 
out there right now is ALP because the Taliban realize they 
cannot make inroads where we have effective local police in 
place. Again, it is that relationship between local leadership, 
the local people, and the ALP that has made this so effective.
    We learned a lot over the last several years about properly 
vetting, and we put those proper vetting procedures in place. 
We have learned a lot over the years about proper chain of 
command and ensuring that there is oversight both from a 
logistics and a command and control perspective. They are fully 
plugged into, again, the Minister of Interior. More 
importantly, we are implementing what we call layered security 
in each one of the provinces. The ALP are inextricably linked 
to the overall concept of layered security in each one of the 
provinces.
    Senator Reed. Thank you very much, sir. Thank you for your 
service.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Welcome back, 
General.
    First of all, in your written statement, you have ``what 
winning looks like,'' and you have four bullet points. One of 
them says, ``an operationally ineffective al Qaeda deprived of 
its safe haven from which to plan and conduct operations 
outside the area.'' Have you seen any change there?
    General Dunford. Over the years I have, Senator.
    Senator McCain. They do not have a safe haven anymore in 
Pakistan?
    General Dunford. They have a safe haven inside of 
Afghanistan. In some areas, we are disrupting them, but they 
have a sanctuary in Pakistan.
    Senator McCain. So have you seen any progress there, the 
safe haven they have in Pakistan?
    General Dunford. The progress I have seen inside of 
Afghanistan first, Senator, has been that our----
    Senator McCain. My question is Pakistan.
    General Dunford. They have not been able to conduct 
effective operations, nor plan effective operations from 
Pakistan, Senator.
    Senator McCain. They do not have a safe haven in Pakistan?
    General Dunford. They are still physically there, Senator. 
They are not able to plan and conduct operations from there at 
this point.
    Senator McCain. That is very interesting news. Today in a 
press clip it says, ``Production of Opium by Afghans is Up 
Again.'' According to the Nation's top counter narcotics 
official, Afghanistan is already the world's largest producer 
of opium, and last year accounted for 75 percent of the world's 
opium supply. Is that of concern to you, General?
    General Dunford. It is of concern, Senator. It is a 
destabilizing effect. It breeds a criminal element, and it also 
supports the Taliban.
    Senator McCain. I thought one of our objectives back in 
2001 was to eliminate opium as a crop of interest, a crop that 
would be so very important when now apparently, according to 
this news report, it might provide 75 to 90 percent of the 
world's supply.
    General Dunford. Senator, in that area, our success has not 
been satisfactory.
    Senator McCain. As we watch the situation unravel in Iraq 
because of our failure, among other things, but primarily 
because of our failure to leave a residual force there, we 
continue to hear mixed reports about the size of the force that 
would be left behind. Chairman of the Joint Chiefs, General 
Dempsey, recently testified that a combined U.S.-NATO post-2014 
force between 8,000 and 12,000 would be ``a reasonable 
target.'' General Mattis, former Commander of U.S. Central 
Command (CENTCOM) testified before this committee, reflecting 
the opinion of your predecessor was to keep 13,600 troops in 
Afghanistan, with several thousand additional NATO forces on 
top of that. What is your view, General? What is your number?
    General Dunford. Senator, I am not going to give you a 
number. I am going to give you a range. My best military advice 
at this point is that we leave it as a range of numbers, and 
here are the reasons. Number one, I think we need to see how 
the Afghans do in their first summer in the lead, and make an 
assessment in November 2013. The other variables that need to 
be considered are how effective political transition is in 
2014, and then the strategic landscape within which we expect 
to be operating post-2014, which addresses the strength of the 
enemy to include the Taliban, al Qaeda, as well as the 
cooperation of regional actors.
    Senator McCain. So you have no number to tell this 
committee right now?
    General Dunford. Senator, I have not provided my number to 
the President yet. We are still in the process of crafting our 
best military advice. But my strongest military advice is not 
to pin down a number right now because the number is----
    Senator McCain. Do you not understand, General, that one of 
the reasons why we are having so much difficulty in some areas 
is because the Afghans do not know what our commitment is? They 
saw what happened in Iraq where we had a commitment. Do you not 
know that they want to know sooner or later what the American 
commitment is post-2014? Do you not understand how critical 
that is to them, because that is what they all tell me?
    General Dunford. Senator, I do. I think the most important 
physical manifestation of our commitment is the signing of the 
BSA with a range of numbers and the level of commitment that we 
will provide post-2014. I have spoken to my Afghan 
counterparts. I do not believe a specific number is anywhere 
near as important as an assured commitment in the context of 
the BSA, and knowing that we will provide the level of advise 
and assist in the counterterrorism effort necessary for post-
2014.
    Senator McCain. I cannot tell you how disappointed I am in 
your testimony, General, because they see what happened in 
Iraq. They see us withdrawing every place in the world. They 
see what is happening in Syria. They see a lack of commitment 
to the United States in Libya, for example, post-Gadhafi, and 
they know which way the wind is blowing.
    For you to tell this committee that we will make that 
decision later on, they are making accommodation for United 
States departure right now. That is one of the reasons why we 
are seeing a lot of the difficulties that we are seeing. I 
strongly urge you to do what General Mattis said, and that is 
to give us an estimate of what the--General Mattis was not 
concerned--did not voice all the concerns that you just--and 
caveats that you just articulated. We know that the Afghans 
want to know what the size of our commitment is and what the 
size of the army that we will support is critical for their 
planning in the future.
    So I strongly urge you to come up with a number to tell 
this committee and the American people. We have a 
responsibility as well. For you to say, we are just going to 
see how things turn out, it will determine the size of the 
post-2014 force, I believe is a tragic and terrible mistake for 
which we may pay a very heavy price.
    I have no further questions.
    General Dunford. Senator, can I comment on that?
    Senator McCain. Sure.
    General Dunford. Senator, to be clear, I did not say to 
leave it completely vague. We are today advising and assisting 
at the battalion level. We are going to lift off to the brigade 
level here this fall. The number of post-2014 is inextricably 
linked to the level that we believe we need to provide advise 
and assist post-2014----
    Senator McCain. You are going to have to wait until 2014 to 
determine that?
    General Dunford. We do not, Senator. What I suggested was 
that this is the Afghan's first summer in the lead. I believe 
this summer will be the bellwether for Afghan performance and 
in 2014 and beyond.
    Senator McCain. General, Senator Graham and I, we talk to 
the Afghans all the time. They are not sure of what the U.S. 
commitment will be, and many of them are making various 
accommodations for a repeat of what happened in Iraq. That is 
why we got a specific number from General Mattis, but we 
somehow cannot get that from you. It is very disappointing.
    I have no more questions, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Udall is not here.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    General, in regards to the BSA, how does that stand, and 
what are the expectations on that?
    General Dunford. Senator, the negotiations for the BSA are 
ongoing. The next meeting between the Afghans and the United 
States is in the month of May. I think we are down to several 
issues that have to be addressed inside the negotiations.
    My sense is that the Afghanistan people as a whole want the 
BSA, so I am optimistic that we will get it signed at some 
point. But there are some difficult issues that are being 
negotiated at this time.
    Senator Donnelly. Is there an understanding on the Afghan 
side that if we do not conclude a Status of Forces Agreement 
(SOFA), it is very difficult to leave our men and women there?
    General Dunford. Senator, it is absolutely clear to the 
Afghans that we will not leave our men and women there without 
appropriate SOFA in the context of the BSA.
    Senator Donnelly. What kind of timing are you looking at to 
conclude that?
    General Dunford. Initially, that was identified as being 
signed not later than November 2013. From my perspective, as 
soon as we can sign it, it would be helpful. It would address 
what Senator McCain spoke about a minute ago and something that 
we are dealing with, which is an environment of uncertainty. I 
believe that the commitment that would be manifest in that BSA 
would be helpful in addressing uncertainty.
    Senator Donnelly. How much control does Pakistan have over 
the Afghan Taliban?
    General Dunford. I do not believe the Pakistanis have 
control over the Afghan Taliban. I do think that the Afghan 
Taliban, particularly the Haqqani network, has sanctuary inside 
of Pakistan, and they get support from individuals in Pakistan. 
But I do not believe anybody controls them.
    Senator Donnelly. Do you think the Inter-Services 
Intelligence (ISI) is working with them?
    General Dunford. There have been intelligence reports that 
link the ISI particularly to the Haqqani network.
    Senator Donnelly. What control does the Pakistan army have 
over the ISI, in your opinion?
    General Dunford. Senator, I do not know. I do not know. I 
think they nominally, of course, work for General Kayani. 
General Kayani is a former Director of the ISI. My sense is 
that anything the ISI does is known by General Kayani, but I 
cannot confirm that.
    Senator Donnelly. Where do you see the primary source for 
the Afghan Taliban of the financial resources they receive, the 
military resources they receive? Where do you see that coming 
from?
    General Dunford. A percentage of it comes from the drug 
trade, some probably 35 or 40 percent comes from the drug 
trade. Some money comes from taxes, illicit taxes that they get 
from Afghan people, and some money comes from external support 
from outside the region.
    Senator Donnelly. Now, when you look at the places that 
they go in Pakistan, the frontier areas, do you believe 
Pakistan, number one, has control over those areas; and, number 
two, can get control over those areas if they do not?
    General Dunford. Senator, Pakistan does not have control 
over those areas right now. They have had over 15,000 killed or 
wounded in operations in that area over the past decade. They 
have had hundreds killed or wounded just in the past several 
weeks as they have tried to gain control of regions in the 
Khyber agency against the Tehrik-i-Taliban Pakistan, or the 
Pakistan Taliban. So I think that is a clear indication that 
they cannot control their border area, and they cannot control 
the Taliban that are operating freely inside of that border 
area.
    Senator Donnelly. What do you see as a role for the 
Taliban, if any, in a future Afghan Government? As we 
transition out, as discussions are taking place, how do you 
envision that future Afghan Government? Obviously there are 
elections coming up, but how are we looking at the transition 
for the Afghan Government as we move forward?
    General Dunford. Senator, DOS has the lead now on working 
on a reconciliation process and trying to bring together the 
Afghan Government as well as the Taliban. I do not have any 
insight today that would lead me to believe that the Taliban 
will be part of the political process in 2014.
    At some point, this war will have to be resolved through 
political means. There will have to be some political 
accommodations made. But I do not have any indication to 
believe that that will be in the near term.
    Senator Donnelly. As we look at the Afghan citizens, and 
obviously there are different parts of the country that react 
in a different way based on where they are located. But when 
the different provinces and the provincial leaders are making 
their decisions, and the people in the towns are making their 
decisions, looking at post-2014, what do you think are the most 
important things they are looking for from the current Afghan 
Government, from the army, to provide them with some certainty 
that come the next night, the Taliban are not going to come 
back and cause havoc and turn their world upside down?
    General Dunford. Senator, in addition to being secure and 
not having those illicit taxes collected, and not having the 
kind of oppression associated with the Taliban in the 1990s, 
one of the major concerns that young Afghans have today is 
jobs. Sixty percent of the population is 25-years-old or less, 
and so in addition to security and a stable environment and 
free from the oppression of the Taliban, they are also very 
concerned about the economy post-2014 and their ability to seek 
proper employment.
    The good news the chairman has outlined is that we have 8 
million that are in school today. The issue is that we raised 
expectations, and those expectations will have to be met with 
an economy that will support adequate jobs.
    Senator Donnelly. As we look towards the end of 2014, is 
there a detailed transition plan with DOS and with the U.S. 
Agency for International Development (USAID) for many of the 
projects that have been begun, many that are on the books? 
Where do those projects go as we look forward?
    General Dunford. Senator, there is a very detailed 
transition process. We established a headquarters just to 
oversee transition. We are completely interlinked with USAID 
and the DOS, as well as other international organizations. Not 
only do we have a broad transition plan for every task and we 
have knocked that list down from some thousands to a handful of 
tasks now that still remain to be worked out in terms of the 
detailed transition plan, but every project that is out there 
right now will have a detailed transition plan as well.
    Senator Donnelly. You mentioned before about security zones 
in the country, areas that are safer than others. As you look 
forward to the next year and then to 2014, what are the things 
that you are most concerned about that could go wrong?
    General Dunford. We are going to transition the final 
tranche of areas over to the Afghans here this summer. That 
final tranche is on the eastern part of the country along the 
borders. That is where the most virulent strains of the 
insurgency are. That is where the most difficult challenges 
from a security perspective are. So as we deal with tranche 
five, that will be difficult.
    My major concern is making sure that by the fall of 2013, 
we have created the perception in Afghanistan that supports the 
political process that will begin in earnest. We will have 
candidates announcing for elections in 2014, here this fall in 
2013. We have talked about inclusive, free, and fair elections, 
so ensuring that we provide security in the areas of what are 
now some 7,000 polling stations is a primary focus that we have 
in conjunction with our Afghan counterparts.
    Senator Donnelly. That whole eastern region as you look 
forward to that, are there metrics that you look at and you go, 
``we have accomplished this by now, we have accomplished this 
by now, we are at this point.'' Do you have a game-plan of by 
the end of 2013, here is where we hope to be in those 
provinces?
    General Dunford. We do, Senator. We are in the process of 
what we call a geographical and functional gap analysis. As I 
alluded to earlier, we want to affect a concept known as 
layered security in each one of the provinces. Layered security 
is successful when you have everything from the ALP, to the 
Afghan uniform police, to the border police, and the ANA 
working together, coordinated by an operational coordination 
center and independent with advisors. So our metrics are very 
much based on the performance of the ANSF and their ability, 
with limited support, to provide security in each of the 34 
provinces in Afghanistan. But as we have been discussing, the 
most difficult provinces will be those in the east.
    Senator Donnelly. General, thank you for your service.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and I, too, 
would like to express my sympathy for those who were lost in 
Boston. If it were to turn out to be that it was a terrorist al 
Qaeda connected operation, I think two things are important for 
us to remember. One is that perfect security is not possible. 
The United States is a great Nation. It is vulnerable, and we 
will always be vulnerable to some attacks. But the offensive 
approach in which we go after those who are organized and 
dedicated to attacking us is the right approach. It does reduce 
the amount of attacks that can occur, in my opinion.
    General Dunford, I think you are what winning looks like, 
and your statement is a conclusion to this effort in 
Afghanistan that I can support. I think it is a reasonable and 
legitimate definition of success.
    I am concerned, along with Senator McCain's comments, that 
success cannot be just removing our troops. After our men and 
women have given so much, this Nation has sacrificed treasure, 
and we have lost some of our finest in this combat. To not 
finish strong, to not end this effort in a way that gives us 
maximum opportunity for this kind of success would be a deep 
and great failure of our country.
    Do you feel a commitment to those who have served, who 
committed themselves to this effort, and want to see a 
successful conclusion occur?
    General Dunford. Senator, I feel an absolute commitment to 
the men and women who have sacrificed over the past 11 years 
and to the families of the fallen. That, frankly, is my 
motivation for performing my duties on a day-to-day basis.
    Senator Sessions. You have told us you believe successful 
conclusion is possible.
    General Dunford. Senator, I absolutely believe that the 
things I outlined in my statement and that I referred to a 
minute ago in terms of what winning looks like are absolutely 
achievable.
    Senator Sessions. This is an important observation, but I 
am concerned, and I will follow up a little bit on what Senator 
McCain--the question he raised. I am looking at an April 2nd 
Bloomberg article. It goes on in some depth about our group of 
former U.S. officials who visited there, and they say that 
President Obama--I will quote the first sentence: ``President 
Obama's failure to spell out his plans in Afghanistan is adding 
to the risk that some Afghans will start negotiating deals with 
the Taliban, according to former U.S. officials who visited the 
country,'' one of those being former Under Secretary of 
Defense, Michele Flournoy, who all of us know, was President 
Obama's appointee there.
    Do you think that is a risk that is occurring?
    General Dunford. Senator, I absolutely agree that today we 
are dealing with uncertainty that must be addressed, and that 
uncertainty has to be addressed by a clear commitment from the 
United States. What I was attempting to do earlier was allude 
to the fact that it is about more than a specific number. Our 
commitment post-2014 and support for the ASF, it is support for 
the political process, and it is advising and assisting in the 
counterterrorism effort. So it is an entire package that 
transcends the importance of any one number.
    Senator Sessions. All right. I respect that. This is a 
quote from former Under Secretary of Defense Michele Flournoy: 
``In Afghanistan right now, there is a huge amount of anxiety 
about the scale and nature of U.S. commitment long term.'' Do 
you think there are actions that we can take to eliminate that 
huge amount of anxiety, and would that not help us be 
successful?
    General Dunford. Senator, I absolutely believe there are 
things we can do, and I absolutely believe that the environment 
within which the Afghans will assume the lead this year, it is 
critical that we shape that environment with this idea of 
commitment.
    I mentioned the BSA a minute ago. From my perspective, 
signing the BSA, of course that takes both the Afghans and the 
United States to agree on the modalities. But signing that will 
be a clear manifestation of our commitment post-2014. I do 
think that continued emphasis on the resources and the 
commitment we provide from an advise and assist in a 
counterterrorism perspective post-2014 is important. It cannot 
be one day we make a message and then allow it to go some 
months before we say it again.
    I think a constant drumbeat of our commitment post-2014 is 
necessary to overcome the uncertainty that is very real and 
very counterproductive inside of Afghanistan right now.
    Senator Sessions. This article notes that there is a 
historical paranoia in Afghanistan, the result of the previous 
abandonment of Afghanistan that allowed the Taliban to take 
over. Do you think that is an accurate assessment, that there 
is a sense of uncertainty and paranoia among the people?
    General Dunford. Senator, I see evidence of that. I 
mentioned the age of Afghans. Even those Afghans who were not 
alive in 1992 talk about the beginnings of civil war in the 
1990s and a desire not to return back to those days.
    Senator Sessions. Secretary Flournoy went on to say that 
spelling out U.S. intentions, including how many troops will 
stay, would ``reduce counterproductive hedging behavior on the 
part of various parties in Afghanistan and in the broader 
region.'' Do you think that is a valuable observation?
    General Dunford. I think providing a specific range of 
numbers right now with a demonstrated commitment at the level 
that we provide support would be helpful.
    Senator Sessions. Are you aware that one White House 
advisor has said no troops may remain in Afghanistan?
    General Dunford. Senator, I read that in the newspaper.
    Senator Sessions. Would that create uncertainty in 
Afghanistan if that were thought to be a reasonable, or a 
potential policy of the United States?
    General Dunford. Senator, having no forces and no presence 
post-2014, in my mind, would undermine our campaign success.
    Senator Sessions. In this article, I just found it to be a 
pretty good summary of some of the difficult choices we are 
wrestling with and you are having to deal with. You are not the 
commander in chief. Ultimately, President Obama, the Commander 
in Chief, will decide how many troops are there. You will make 
a recommendation up through the chain, is that correct?
    General Dunford. That is correct, Senator.
    Senator Sessions. One of the things that was troubling to 
me is our Commander in Chief, President Obama, has been there 5 
years, and we have troops on the ground in harm's way right 
this minute. This is what Mr. Michael O'Hanlon, the defense 
analyst at Brookings, said in this article, April 2, one of the 
most consistent observers of our operations in Afghanistan and 
Iraq of anybody in America. From the beginning, he has been 
observing, commenting, and writing about it, and this is the 
liberal Brookings Institution.
    He says the absence of a clear message from Obama about the 
continuing U.S. presence in Afghanistan may be an indication--
excuse me. He is not saying this. This is what the writer said: 
`` `The absence of a clear message may be an indication that 
the President has not made up his mind,' said Michael O'Hanlon, 
defense analyst at Brookings. `Obviously Obama was of two minds 
about keeping U.S. troops in Iraq after the war ended there,' 
O'Hanlon said. `He may have similar ambivalence in 
Afghanistan.' ''
    So if the President is ambivalent about the future--I will 
not ask you to respond to that. I would just say if the 
President is ambivalent about the future, what will happen in 
Afghanistan? I will observe I think without a doubt it makes 
your job more difficult and makes success more difficult. We 
have to get our act together. I think we have to have a clear 
message.
    I appreciate your firm view that success is possible. I 
think that should be the goal, and the goal should not be to 
meet some political vision of troop levels unconnected to the 
reality in Afghanistan.
    Thank you for your service. We appreciate it, and all the 
men and women that serve with you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman. I want to join 
in thanking you for your service over many years in the 
position you have now and many others, and the men and women 
who perform so courageously under your command. I want to thank 
you particularly for your very helpful and informative 
testimony here today, which is encouraging in many respects, 
but also sobering.
    I find it sobering in two respects particularly. First of 
all, your reference to the continuing threat from IEDs, a 
problem that has bedeviled and perplexed and stymied our 
efforts in Afghanistan as well as Iraq over the years. I want 
to ask in particular whether you view there having been any 
progress in the Pakistani's action against the flow of 
fertilizer and other bombmaking materials from their country 
into Afghanistan? Apparently the casualties and deaths and from 
IEDs are still the biggest single source of the threat in 
Afghanistan to life and limb there, both to our forces and to 
the ANA and ANSF. So I wonder if you could comment on whether 
the Pakistanis have been more cooperative and helpful?
    General Dunford. Senator, I can, and this is another area 
where we have seen a lot of rhetoric exchanged over the last 
couple of months. We are now meeting with the Pakistanis 
specifically on the IED threat. They also recognize the threat 
of IEDs inside of Pakistan, which I think has heightened their 
concern.
    The Joint IED Defeat Office has had some success in working 
with manufacturers in Pakistan to perhaps change the 
composition of the chemicals inside of the fertilizer that 
would make it less explosive, less likely to be used in IEDs. 
We have some increased cooperation at the border, but, Senator, 
I am not satisfied with the output of all those activities yet. 
We still see a large amount of ammonium nitrate moving back and 
forth from Pakistan into Afghanistan, and sadly that provides 
the materials for the preponderance of the IEDs that we are 
dealing with.
    Largely, by the way, at this point, the effects of IEDs are 
being felt by the ASF even more than our forces today.
    Senator Blumenthal. My impression over the years from my 
first visit, and I have been three times and asked these 
questions every time I visited, is that there have been more 
words than action from the Pakistanis, and the continuing 
rhetoric, as you refer to it, over the years has produced less 
action than there should be.
    General Dunford. Senator, I think it is fair to say there 
is less action than there should be, less action than there 
needs to be.
    Senator Blumenthal. Let me then go to the second sobering 
part of your testimony, which refers to the attrition rates in 
the ANA, what you refer to as a significant challenge, quoting 
you. Is this problem solvable? Is the ANA going to be able to 
recruit and train the forces that it needs to contain and repel 
and conquer the Taliban?
    General Dunford. Senator, I believe there is room to make a 
significant improvement in this attrition issue. I mentioned 
earlier that we had focused on growing the quantity of force 
over the last several years. The vetting process that is in 
place today is much better than the vetting process that we had 
in place a couple of years ago.
    The other thing that gives me room for hope is there is a 
direct correlation between the attrition in the ANSF and 
leadership. Where we have seen effective Afghan leaders, we see 
low levels of attrition. Even though some of the factors are 
beyond leadership that have to be addressed, there is a direct 
correlation between leadership and attrition.
    The minister of defense has recently directed a study be 
done of all lieutenant colonels and above in the ASF. They have 
completed that study and 30 general officers were recommended 
for relief from their duties; 55 additional general officers we 
recommended for retirement, that they hit retirement age.
    Minister Mohammadi, the minister of defense, decentralized 
decisionmaking for personnel for captains and below, so we see 
some decentralization taking place to enhance accountability of 
leadership. These are the steps that I believe have to be 
taken. I am mindful of the challenges we have in the U.S. 
military when I came in as a platoon commander in the 1970s, 
and we had significant attrition in the U.S. Marine Corps at 
that time, and we had significant attrition in the U.S. Army. A 
big part of that was a function of leadership, and as leaders 
were held accountable and held to standard, we addressed that 
attrition problem.
    I think a similar process can take place and is taking 
place in the ASF, but it is not something that will happen 
overnight. This idea of leadership development is a 2-, 3-, 5-
year process, but we are moving in the right direction. The 
thing that I find most encouraging is that Afghan leadership 
are being held accountable today by the Afghan chain of 
command. When they fail to perform, they are being removed from 
their duties. When they fail to perform, they are being 
dismissed. I think that is a positive sign.
    Senator Blumenthal. That effort will really depend on the 
credibility and confidence and the integrity of the Afghan 
Government, will it not, in part, to assure that kind of 
leadership?
    General Dunford. Over time, effective political transition 
is absolutely critical to security. They are inextricably 
linked, Senator.
    Senator Blumenthal. Let me then go to the question of 
corruption in the Afghan Government, which affects the United 
States as well. I am very concerned with the contracts 
involving taxpayers' dollars of the United States that may go 
to companies that, in effect, benefit our enemy. Senator Ayotte 
and I have helped to spearhead efforts to improve that 
contracting law that will enable more effective prosecution of 
those kinds of corrupt contracts.
    Do you have any observations about whether there have been 
improvements generally in corruption within the Afghan 
Government, and specifically relating to U.S. contracts for 
goods and services?
    General Dunford. Senator, the National Defense 
Authorization Act in 2012 that allowed us to cease contracting 
with the enemy was extraordinarily helpful in that we had 
decisionmaking authority decentralized where if you had an 
indication that a contractor or a subcontractor was associated 
with the enemy, we could immediately stop that contract.
    I read the recent Inspector General of Afghanistan's report 
making some recommendations how to take that legislation 
further. Conceptually, I absolutely support that. It would 
expand that beyond the Department of Defense (DOD) so that 
other U.S. Government agencies can also have the same 
authorities that we have been given as a result of that very 
helpful legislation, and also to address a different level of 
contracts. In the past, there had been over $100,000, and this 
would bring it to a level below that.
    So I do think we have had some improvement in that 
particular area as a result of that legislation. I think to 
continue to move in that same direction would be very helpful, 
Senator.
    Senator Blumenthal. Thank you. One last question, and I 
have a lot more questions, but my time is about to expire. The 
chairman asked you, I believe, about the Afghan interpreters 
that were the subject of a recent piece in the New York Times. 
I am very concerned about providing the kinds of visas that are 
necessary often for the survival of these interpreters. I have 
talked to a number of our marines coming back, and they are 
concerned as well with the kind of service that these 
interpreters and others have provided that may endanger them, 
in fact, very severely so, their lives.
    Do you have any observations about what we can do to 
improve that process?
    General Dunford. Senator, I think raising the visibility is 
very important, and I would put a personal face on it. One of 
the individuals that is waiting for a visa, one of the 
individuals who has applied to come back to the United States 
for many years, was the interpreter that was with Sergeant 
Dakota Meyer the day he received the Congressional Medal of 
Honor. There is an individual who was part of that fight, fully 
supportive of the advisors who that day their lives were lost, 
or in the case of Sergeant Meyer, certainly threatened. There 
are many interpreters like those who have fought alongside of 
us, who have supported the mission. As I mentioned before, our 
success could not have been possible without them.
    I think having visibility and recognition of their 
contribution, and facilitating their coming to our country 
through the bureaucratic process would be very helpful.
    Senator Blumenthal. Thank you, General. Thank you for your 
service, and thank you to the men and women who are under your 
command.
    Chairman Levin. Thank you very much, Senator Blumenthal.
    Senator Graham.
    Senator Graham. Thank you, General. I thank you and your 
staff for doing a very good job, an exceptional job, in 
difficult circumstances.
    I would like to revisit an exchange you had with Senator 
McCain about the al Qaeda presence in the tribal regions. You 
said al Qaeda is still present on the Pakistan side of the 
border, but they are--how did you term it, ``not as 
effective?'' What did you say?
    General Dunford. Senator, what I was trying to get at was I 
believe our operations, and of course, those not being 
conducted by U.S. Forces-Afghanistan, but it seems to me that 
there are operations being conducted in Pakistan that are 
disrupting al Qaeda in Pakistan.
    Senator Graham. Would you agree that having SOFs on the 
Afghan side of the border has been helpful?
    General Dunford. It has been extraordinarily helpful, and 
we have had a disrupting effect on al Qaeda as a result of our 
SOFs in Afghanistan.
    Senator Graham. How many SOFs do we have in Afghanistan 
today?
    General Dunford. Senator, I can give you that number, but I 
would prefer not to give it to you here.
    Senator Graham. Absolutely. But it is thousands I would 
suggest.
    General Dunford. That is correct, Senator.
    Senator Graham. Okay. One of the reasons that we have 
contained al Qaeda is that we have other agencies in the fight, 
but we have a lot of intelligence capability in that part of 
the country. Is that correct?
    General Dunford. We do, Senator.
    Senator Graham. Okay. We have the ability to strike in that 
part of the country as well. I guess my point is that when you 
look at a post-2014 force, it would be a very unwise move to 
take that infrastructure down. Do you agree with that?
    General Dunford. I do agree with that, Senator.
    Senator Graham. So I want my colleagues to understand the 
infrastructure in place that diminishes al Qaeda's 
effectiveness along the tribal regions inside of Pakistan is 
the direct result of infrastructure that we have in 
Afghanistan, as well as other agencies' capabilities.
    When you talk about winning, what would losing look like?
    General Dunford. Senator, I think losing would look like 
Afghanistan devolving, Afghanistan returning to chaos, 
Afghanistan being a sanctuary for al Qaeda, the people of 
Afghanistan once again being subjected to the oppression of the 
Taliban in the 1990s, a sanctuary from which security and 
stability in Pakistan can be threatened. All those would be 
components of losing.
    Senator Graham. The ability of al Qaeda to regenerate would 
be greater under a losing scenario, is that correct?
    General Dunford. I do not think there is any question about 
that, Senator.
    Senator Graham. If we were seen as losing in Afghanistan, 
it would be hard to convince the Iranians to change their 
behavior?
    General Dunford. I think a credible outcome in Afghanistan 
certainly will influence those who would do harm.
    Senator Graham. Okay. Now, when it comes to future hands to 
be played or cards to be played, the follow-on force, let us 
say for a moment there were no troops in 2014. We decided to 
pull out completely like we did in Iraq. What would your 
evaluation of the outcome be under that scenario?
    General Dunford. I think if we did not have a presence 
post-2014 and we did not provide security assistance to the 
ANSF post-2014, it would be a question of time before they 
would devolve.
    Senator Graham. So we would eventually lose all we have 
gained?
    General Dunford. I believe that Afghanistan would be at 
great risk of instability if we would leave before 2014.
    Senator Graham. Do you think that would be true if we had 
2,000 troops left?
    General Dunford. Senator, we would not be able to 
accomplish both of our missions. We have two missions. One is 
to deal with the terrorist threat, the other is to deal with 
security and stability, and to prevent the Taliban from coming 
back. It would be difficult to accomplish those missions at a 
force level of 2,000.
    Senator Graham. One of the goals of this BSA is to solidify 
the relationship between the United States and Afghanistan for 
at least a 10-year period. Is that correct?
    General Dunford. That is correct, Senator.
    Senator Graham. People are evaluating what bets to make as 
I speak in Afghanistan and the region. The sooner that we can 
make this announcement in a bold way, the better off. Do you 
agree with that?
    General Dunford. I do agree with that, Senator.
    Senator Graham. Now, Senator Levin and I have been on the 
same sheet of music for a very long time about the size of the 
Afghan army. It is 352,000. As I understand, it costs us about 
$6.5 billion a year to maintain that force. Does that sound 
about right?
    General Dunford. It is going to be $4.1 billion for the 
program of record. Increasing the program of record and 
sustaining past 352,000 is somewhere between $5 and $6 billion. 
So that is the aggregate cost of the force. Only a small part 
of that is what is the cost of the program of record to 352,000 
through 2018.
    Senator Graham. Okay. So what percentage do we pay?
    General Dunford. Of the $4.1 billion program of record, our 
coalition partners pay $1.3 billion, the Afghans have pledged 
$500 million, and we pay the difference.
    Senator Graham. The difference between 352,000 and, say, 
230,000, is how much?
    General Dunford. In any given year, it is somewhere between 
$400 and $600 million a year, Senator.
    Senator Graham. The difference in capability, would you 
say, is significant between 352,000 and 230,000?
    General Dunford. I think both from a capability and a 
psychology perspective, it would be significant.
    Senator Graham. Do you believe it would be a wise 
investment for American taxpayers to continue to invest in the 
ANSF at 352,000?
    General Dunford. I do, Senator.
    Senator Graham. The more they have, the less they need us, 
is that correct? The more capable they are?
    General Dunford. I absolutely think there is a relationship 
between our post-2014 presence and the capabilities and 
capacities of the Afghans.
    Senator Graham. Now, when it comes to detention, we have 
just entered into a new agreement with the Afghan Government. 
Could you give us a 1-minute overview of that agreement?
    General Dunford. Senator, we transferred authority for 
detention operations to the Afghans in March 2013. What that 
means is that now there will be a criminal process that affects 
detainees. We have an agreement to keep the enduring security 
threats that are in detention at this particular time, and 
future enduring security threats, and we also are partnered at 
the facility, the detention facility at Parwan, to ensure that 
we continue to have humane treatment, and that we have 
visibility of detainees post the transfer.
    Senator Graham. Is it fair to say that we do not have a 
disposition planned for the third country nationals we hold at 
Parwan?
    General Dunford. We still have custody and control of third 
country nationals, Senator, and I do not know what the plan is 
right now post-2014. It is part of a process that is ongoing.
    Senator Graham. Some of these are definitely transnational 
terrorism--terrorists who have been in the fight for quite a 
while.
    General Dunford. They are, Senator.
    Senator Graham. Have drones helped the operations in 
Afghanistan?
    General Dunford. Significantly, Senator. That is one of the 
ways that we put pressure on al Qaeda, as an example, but they 
are effective across all of our operations.
    Senator Graham. Under the Rules of War, if you see an al 
Qaeda operative out in the open walking down the road and we 
get a good signature on this person, do we have to wait until 
they take up arms to fire, or can we shoot when we see them?
    General Dunford. If they are designated, we do not have to 
wait until they take up arms, Senator.
    Senator Graham. Which makes common sense. Do you agree with 
that?
    General Dunford. I do, Senator.
    Senator Graham. Now, as to the future of Afghanistan, you 
have Pakistan as a potential threat because of the safe havens. 
You have al Qaeda, the Taliban, and you have Afghan governance. 
The Government of Afghanistan in many ways is one of the 
enemies we are fighting here.
    You indicated that the military will get better over time 
as leadership evolves and people are held more accountable. Do 
you believe that the corruption we see today in Afghanistan 
among different ministries and throughout the country can get 
better over time as these young people we have been mentoring 
take over in the future?
    General Dunford. Senator, I believe it can get better, but 
the operative part of your phrase is ``over time.''
    Senator Graham. We are talking about a 10- or 15-year 
window in that regard.
    General Dunford. We are talking a significant period of 
time. I think we are talking about this population now that is 
25 years or less assuming positions of increased responsibility 
in the future.
    Senator Graham. Do you believe it is a good investment on 
our part to stay partnered with these young people?
    General Dunford. I think it is a critical investment, 
Senator.
    Senator Graham. Thank you.
    Chairman Levin. Thank you, Senator Graham.
    Senator King.
    Senator King. General, thank you very much. It seems to me 
that what we are facing in Afghanistan, and particularly what 
the Afghanistan Government faces after 2014, amounts to a 
guerilla war. The doctrine of guerilla war, as I remember Mao 
Tse-Tung, was that the guerilla has to swim in the sea of the 
people or something to that effect.
    How do the people of Afghanistan feel about this conflict? 
Can the Taliban and al Qaeda find a warm, hospitable sea to 
swim in, or are the people loyal to the government and what we 
have tried to accomplish?
    General Dunford. Senator, there is no question in my mind 
that the Afghan people do not want to return to the oppression 
of the Taliban that was there in the 1990s. We have survey 
after survey that indicates that the Taliban are increasingly 
unpopular amongst the Afghan people. That has not yet made a 
direct correlation to support for the Afghan Government. So 
while they are absolutely opposed to the Taliban returning to 
power and they are absolutely opposed to what the Taliban 
stands for, they do not yet have the full confidence in the 
Government of Afghanistan to provide it full support.
    Senator King. That might apply here. The people of America 
are not too crazy about Congress either. It is a different 
subject.
    You were involved in Iraq, is that correct?
    General Dunford. That is correct, Senator.
    Senator King. What lessons do you take from Iraq, and 
particularly from the unwinding of our involvement in Iraq, 
that can be applied to this circumstance that we are now 
facing, ending our involvement in Afghanistan?
    General Dunford. Senator, I think one of the most important 
lessons from Iraq is that we waited too late to work through 
the details of a BSA. In any event, we were unable to conclude 
the successful BSA.
    We have started that process much earlier. That is why I 
have highlighted the BSA this morning. I think we have had a 
discussion about it. I think the key lesson learned is to 
ensure that we have a smooth transition post-2014, that we 
provide the Afghan people with our sense of commitment post-
2014. We should view 2014 today, December 2014, as nothing more 
than a change in the mandate, in a change in the authorities, 
but a continuity of commitment post-2014. If we are able to do 
that, I think we will have internalized the most important 
lesson from our Iraq experience.
    Senator King. So you think that essentially 2014 should be 
a seamless transition to a competent and sufficient Afghan 
force to essentially take over what we have been doing.
    General Dunford. I do, Senator. What January 2015 ought to 
look like is we have completed political transition. We have 
completed security transition. But we are still there 
decisively in an advise and assist in a counterterrorism role 
under different authorities and now at the exact request of the 
Afghan people in the context of a BSA.
    What will be different is we will not be under a United 
Nations (U.N.) mandate. We will not be under the law of armed 
conflict. We will not be under the military technical 
agreement. But we will still be there and be able to provide 
the requisite support both politically and from a security 
perspective.
    Senator King. You mentioned that the Afghan force is 
anticipated to be somewhere around 350,000. What are the 
estimates of the size of the Taliban or al Qaeda or the 
aggregate enemy group, if you will?
    General Dunford. Senator, that is a question that frankly 
we ask all the time, and we do not know. There are some 
estimates that talk about 20,000 to 30,000 Taliban. But I think 
because you have such various levels of Taliban, those that are 
actually ideologically committed, Taliban senior leadership in 
Quetta is certainly different than day-to-day people who might 
fight on the ground that it is very difficult to capture a 
number when you talk about the Taliban.
    Senator King. I would suggest, therefore, given the small 
number, that the view of the people at large, as we discussed 
at the beginning, is going to be critical as to whether or not 
they can really gain any power in the situation. They are going 
to have to have the support of the public, would you not agree?
    General Dunford. Senator, what gives me optimism and the 
reason why I am optimistic about the campaign is it is all 
about the ASF's ability to provide security to the population, 
and every day we are improving in that particular area. That 
reduces the freedom of movement. That reduces the ability for 
the Taliban to influence the population.
    I honestly believe--there used to be an expression that the 
Taliban have the time and we have the watches. I do not believe 
that is any longer the case. I think the Taliban are going to 
wake up at some point and they are going to realize this is not 
their father's ANSF, and they are going to be unable to 
influence the population in the way that they have done in the 
past.
    Senator King. Let me change the subject for a minute. What 
is the situation on green on blue attacks? Has that declined? 
Do you feel that is under control? Does that indicate 
significant infiltration of the ASF?
    General Dunford. Senator, that is one of the most insidious 
risks to the force, and in 2012, we had a significant challenge 
with insider attacks. As a result, we significantly improved 
our training. We added counterintelligence capability both in 
the coalition as well as inside the Afghan forces. We revised 
our tactics, techniques, and procedures, and we have a much 
more routine and effective dialogue with our Afghan partners to 
mitigate the risk of the insider attacks.
    I will not for a second be complacent. Indications are that 
we have made some progress just based on numbers. We have had 3 
in 2013; during that same period of time, we had 20 last year 
in 2012. But of the issues that keep me awake at night and the 
ones that I want to stay focused on, the insider threat is 
absolutely one of those.
    It erodes trust between our coalition and our Afghan 
partners, and, more importantly, it erodes the will of the 
American people. I recognize that.
    Senator King. What is your analysis of the leadership of 
the Afghan force? That is important. The quality and character 
of the leadership is a crucial element to any enterprise 
success. You know these people, I presume, personally. Do you 
have confidence that these are strong and effective leaders?
    General Dunford. Senator, I would characterize the Afghan 
leadership as improving. There are a number of leaders, and we 
are fortunate right now that both the Minister of Defense and 
Minister of Interior have fallen into this category. There are 
a number of leaders who have vision, that have commitment, that 
have strong leadership, and are taking appropriate action.
    It is going to take time before we have the depth of 
leadership that we need to have across the forces, the 
consistency, the continuity of leadership. Where we see good 
leadership we see good units. Where we see deficient 
leadership, we have some challenges. That is one of our areas, 
again, as we focus on quality over the next couple of years, 
leadership development is really important, not only officers, 
but noncommissioned officers (NCO).
    As an example, we are currently short 10,000 NCOs in the 
Army and about 6,000 in the police. Addressing that deficiency 
and developing those leaders is a key part of what we need to 
do over the next couple of years to make sure that our progress 
is sustained.
    Senator King. Are we going to maintain after 2014 any role 
at all in training--in leadership and that kind of professional 
development, if you will?
    General Dunford. Absolutely, Senator. That really is 
probably the primary focus of our post-2014 contribution will 
be advising and assisting in the institutions where we grow 
NCOs, where we grow officers, and where we develop integrated 
combined arms capability. Among the more important tasks we 
have post-2014 is leadership development. That is the same for 
our coalition partners who will also contribute.
    Senator King. General, thank you very much for your 
service, and particularly for your service in this very 
difficult and important period.
    General Dunford. Thank you, Senator.
    Chairman Levin. Thank you, Senator King.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman. Thank you, General, 
for joining us and for the service you provide to our country.
    If the United States and Afghanistan reach an agreement to 
keep a U.S. troop presence in that country beyond 2014, what 
are some of the tangible goals that the United States would be 
looking for to achieve in that country? Is there a certain 
security metric, a certain measurable level of security we are 
hoping to reach? In other words, going along with that, what 
would it take for you to be comfortable in saying that we would 
no longer at some point need a troop presence in Afghanistan?
    General Dunford. Senator, the focus post-2014 is all about 
growing capabilities and capacities of the Afghans. Some of the 
remaining challenges, they started at the ministerial level. So 
Minister of Defense and Minister of Interior, they cannot 
manage a budget right now. As an example, last year the 
minister of defense only executed a very small percentage of 
the budget they actually had. It was not due to corruption, it 
was due to bureaucratic inefficiency. So growing the 
capabilities and capacities of the ministry are very important 
to be able to sustain our efforts.
    By the same token, there are logistics issues, so having a 
logistics infrastructure in place, taking a sure distribution 
of supplies and parts all the way down to the lowest tactical 
level is an area that needs to continue to be worked on. I 
spoke about a minute ago, leadership development is also 
important.
    So when I start to look at what we need to do past 2014, to 
be clear, our effort will not be to provide security inside of 
Afghanistan. Our effort will be to advise the ASF so that what 
we have done over the past several years is actually 
sustainable, and we will be able to measure that sustainability 
over time and gradually reduce our presence.
    Senator Lee. You have the metrics in place to do that?
    General Dunford. We do have the metrics in place, Senator, 
that both address where we have to be for proficiency at the 
ministerial level, as well as we have 14 functional areas that 
we evaluate in our tactical units that allow us to determine 
where they are and what support they may need to improve to 
take it to the next level.
    Senator Lee. DOD is currently spending about $10 billion 
more conducting the war effort in Afghanistan this year than 
was estimated would be necessary. From what we understand, in 
order to make up for this underestimation, DOD will, of course, 
have to pull from other funds from its base budget, which is, 
of course, difficult because of the cuts we are facing as a 
result of sequestration and the other long-term spending limits 
imposed by the Budget Control Act of 2011.
    I understand the problems with trying to budget and plan 
for a war a year in advance and how unforeseen costs can arise. 
At the same time, a $10 billion miscalculation is a little bit 
alarming, especially just given all the other pressures that we 
face in DOD.
    So, General, can you explain to us how that underestimation 
occurred?
    General Dunford. Senator, I am not aware that we inside of 
U.S. Forces-Afghanistan underestimated by $10 billion our 
requirements for this year. I can assure you that we have gone 
back and looked at every dollar that we are spending to make 
sure we are spending it to good effect. We have significantly 
reduced, in fact, particularly in the area of military 
construction, significantly reduced the money that we are 
spending in Afghanistan.
    I will go back and take a look at where that projection 
came from and why we are in the position we are in right now. 
But that is not something I was aware of.
    Senator Lee. Okay, we can follow up with that with you 
after this hearing. So let me talk about Pakistan for a minute 
because it is impossible to cover the gamut of issues that we 
face in Afghanistan without also discussing the influence of 
Pakistan and Pakistan's behavior.
    We have spent billions of dollars in Pakistan since 
September 11th, 2001, for security and for economic assistance. 
But Pakistan, some would say, can at times seem to be more of 
an obstacle than a partner in the progress of the region, from 
closing the borders to NATO supplies, to the ties of the ISI to 
extremist groups, to the lack of cooperation in the hunt for 
Osama bin Laden, and to the imprisonment of Dr. Afridi for his 
assistance to the United States.
    What is your personal assessment, General, of the 
relationship between the United States and Pakistan, and the 
relationship between Pakistan and Afghanistan moving forward?
    General Dunford. Senator, in the first place, I think we 
would agree that we have vital national interests in Pakistan 
in the sense that the nexus between extremism and nuclear 
weapons would be catastrophic.
    I personally have watched how we have dealt with Pakistan 
over the years. In the 1990s, we decided to isolate Pakistan as 
a result of the Pressler amendment, and then we stopped 
conducting military-to-military engagements. I now see the 
adverse effect of that policy that took place for over a decade 
because my generation of leaders does not have personal 
relationships with our Pakistani counterparts to work through 
some of these issues.
    So I think there has to be balance. I think it is in our 
interest to have a strategic partnership with Pakistan, and we 
need to manage the relationship with the end in sight, which is 
that professional and deep strategic partnership over time, 
which of course today is something that needs work.
    With regard to Afghanistan and Pakistan, my objective 
before transition in 2014 is to ensure that we have a 
constructive military-to-military relationship, between 
Afghanistan and Pakistan. It will absolutely be at the tactical 
level, but I think it can be a foundation for a deeper 
relationship over time. The relationship will take much effort.
    I am optimistic because, as I mentioned earlier, General 
Kayani and his leaders, as well as Afghan leaders, will meet 
with me later this month. We do have a number of exchanges 
going on right now.
    Senator Lee. So looking forward then to a post-2014 
environment, do you believe these multibillion payments to 
Pakistan ought to continue regardless of whether, or to what 
extent, there is a continued American presence or a continued 
NATO troop presence in Afghanistan?
    General Dunford. Senator, I believe we need to maintain a 
very constructive, effective relationship with Pakistan. We 
need to recognize the very real threat that Pakistan has inside 
of its own borders. From my perspective, we ought to do 
whatever it takes to ensure our vital national interests in 
that particular part of the world are protected.
    Senator Lee. Okay. One of the things that I am always 
looking to in that kind of aid is whether or not it does serve 
the military purpose. You are saying we need to do whatever it 
takes to continue that relationship. Are you saying that 
payments of that size and of that nature are what is going to 
be required in the long run?
    General Dunford. Senator, I believe it is in our best 
interest to continue to develop the Pakistani army and to 
ensure that they can effectively deal with security within 
their borders. I would not tell you that every single program 
that we have in place right now is one we ought to sustain in 
the future. That is not something I pay particular attention to 
right now in my current duties, but I am absolutely adamant 
that we ought to maintain a close relationship with Pakistan 
and help them to develop the resources to be able to provide 
security.
    Senator Lee. Your fear would be that if we were to cut all 
of that off abruptly, that we could end up in the same kind of 
dynamic that you are describing where the military-to-military 
relationships do not exist.
    General Dunford. Senator, I believe that Pakistan has a 
very real threat inside their borders right now, and I do not 
believe that they can deal with that particular threat without 
external support.
    Senator Lee. Okay. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lee.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Good morning, 
General. Thank you, of course, for being here and for your 
incredible sacrifice and service to our country.
    Let me move right to the Afghan general elections in 2014. 
When we met, we agreed that it would be difficult to overstate 
the importance of those elections. In your assessment, what 
needs to happen between now and April 2014 to ensure that the 
elections are not only free and fair, but recognized to be free 
and fair by the Afghan public?
    General Dunford. Senator, the first precondition for 
successful elections is obviously the security environment. So 
as I mentioned earlier, summer of 2013, from my perspective, is 
very important. We need to emerge from the summer of 2013 with 
security in those areas, particularly those areas that are 
important to the elections. We need to emerge from the summer 
of 2013 with the perception of security so that people want to 
participate in the elections.
    I think one of the things that will determine whether they 
are viewed as free and fair is if they are inclusive. I imagine 
there are 7,000 polling stations, and we need to make sure that 
there is security such that people have access to those polling 
stations in April. So from a security perspective, that is very 
important.
    The Minister of Interior has the lead on security. We are 
decisively engaged, and my intent is to provide whatever 
support the ANSF need us to provide to make sure the elections 
are successful in 2014.
    Senator Udall. Let me move to the ALP. We talked about 
their important role, and you talked about how the Taliban sees 
that program. If my memory is right, you said that the ALP is 
one of the most significant issues that the Taliban will have 
to address in order to be successful. Do you still hold that 
view? To what extent does the ALP need to be funded and manned 
at high levels? Is the ALP a sustainable initiative as we draw 
down our coalition troops?
    General Dunford. Senator, I absolutely continue to believe 
that the ALP is critical to our success. It is an important 
component in that layered security concept I spoke to earlier. 
For all the reasons I spoke about, I have confidence in their 
ability.
    We have about 21,000 what they call guardians or member of 
the ALP today. There is planned growth for 30,000. The Minister 
of Interior has requested to grow that figure to 45,000. What I 
have asked my staff to do is review that in June or July this 
year to ensure that we do not look at the ALP other than in the 
full context of ASF and the effect that we are trying to 
achieve post-2014.
    But I am a big believer in the ALP initiative. I believe it 
is one of the critical components of security post-2014. I 
believe it is sustainable, and it has Afghan ownership right 
now. In many cases, it is the Afghans who are identifying the 
areas where they want ALP to be established.
    Senator Udall. Yes, I do not think you could overstate or I 
could overstate the utility of local ownership in the sense 
that these police forces work for us, not for the coalition, 
not for anybody else, but for the local communities.
    Let me move to the heavy responsibility you have, and that 
is that you are simultaneously preparing for this year's 
fighting season and you are planning for troop reductions over 
the next 20 months. In your opening statement, you mentioned a 
range of capabilities and units that the ASF currently lack.
    In that light, would you recommend that aviation assets, 
DOD support, and other capabilities be provided by our military 
after 2014? On a related note, will the U.S. Government 
civilian agencies be able to sustain their current levels of 
personnel and assistance without having a robust NATO military 
network in place?
    General Dunford. Senator, there are certain capability 
gaps, and you highlighted the most important ones, and I would 
say the most important one would be close air support (CAS). So 
I would recommend where appropriate that we would provide CAS 
to the Afghans post-2014. We have seen several times recently 
where the absence of that kind of CAS created difficulties for 
Afghan forces, and we will not have addressed the capabilities 
of the Afghanistan air forces until 2015 or 2016. That is the 
program of record as it currently exists. So there will be a 
gap between 2014 in the full operational capability of the 
Afghan air force. When that gap exists, where it is important 
to sustain our success, I would recommend that we provide that 
support.
    With regard to the civilian agencies, earlier I mentioned 
that I believe we should be in the four corners of Afghanistan 
post-2014. One of the reasons why I believe that is not only to 
provide the right level of advise and assist to our Afghan 
counterparts, but also to support the U.S. Government 
interagency. Ambassador Cunningham in Kabul and I have complete 
integration in terms of planning for post-2014. I understand 
what his requirements are from an embassy perspective, and they 
are part of our planning for post-2014.
    Senator Udall. I will not ask you to answer this question, 
but I think it is incumbent on all of us to think about the 
president's, as in President Karzai's, behaviors and comments 
at times about air support, about our SOFs and the like. We 
should consider what his reaction will be to the continuation 
of CAS moving forward. I just make that comment.
    Let me turn to sequestration, if I might. What are your 
concerns? To what extent will sequestration have a negative 
effect on the mission and the readiness of the troops that will 
rotate into that theater between now and 2014, and perhaps 
beyond?
    General Dunford. Senator, you hit it exactly right. From my 
perspective, I have been told that sequestration will not 
affect the resources that we have available to our men and 
women on the ground inside of Afghanistan, and I believe that. 
My greatest concerns is that it will impact the readiness of 
those units who are at home station preparing to deploy to 
Afghanistan.
    I think one of the great success stories over the last 10 
years has been the quality training and equipping that we 
provided to our young men and women in uniform. Training today, 
there is no comparison to what training was earlier in my 
career. That is as a result of the support of Congress. That is 
as a result of leadership learning lessons over the last 10 
years, and I think it is very important that we sustain that 
same high level of training in the coming years because we will 
still have people in harm's way.
    Senator Udall. Let me move back to the Taliban and the 
threats that they present, but also the opportunity for the 
Afghan Government and for us. I think we share a concern that 
the Taliban could become viewed by the public as the best 
arbitrator in dispute resolutions. If the national government 
or even provincial officials are viewed as corrupt, then 
Afghans could be tempted to turn to the Taliban and their 
courts to resolve their problems. Then if you add into that the 
sense that the Afghan Government is a predatory actor that 
takes private land unfairly or without compensation, that 
provides the Taliban power and influence potentially.
    Is it reasonable to expect that these types of practices 
which are counterproductive can be halted?
    General Dunford. Senator, I believe it is not so much 
halting them as providing an alternative which would cause them 
to be irrelevant. I do believe that dispute resolution is a 
core function of subnational governance in Afghanistan, and it 
is one of the critical areas. The rule of law in general is one 
of the critical areas that the Afghans have to improve in order 
for our success to be sustainable in the future. There is no 
question about it.
    Senator Udall. General, again, thank you for your service. 
Thanks for making the long trip here from theater. I look 
forward to working with you as we move forward at this crucial 
point in time in our involvement in Afghanistan.
    General Dunford. Thank you, Senator.
    Senator Udall. Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Chairman Levin. Your mic.
    Senator Blunt. Almost turned it on. Thank you, Mr. 
Chairman, and thank you, General, for spending time with us 
today.
    I want to follow up first on Senator Graham's comments on 
the detention of somebody we capture, a third country national. 
My impression is that there is really no plan as to what to do 
with them in the future.
    General Dunford. Senator, we do not have a decision on what 
to do with them in the future. In fact, next week we have a 
team led by the Office of Secretary of Defense to come over and 
to work through this issue. This issue is not a new issue. It 
has been worked.
    Senator Blunt. Right.
    General Dunford. I just do not have the decision about the 
disposition of those detainees as we approach 2014.
    Senator Blunt. What would be the risk of not agreeing to a 
plan for those detainees?
    General Dunford. Senator, these are people that absolutely 
have to be kept behind bars, so we need a plan to detain these 
individuals, in most cases, on an enduring basis.
    Senator Blunt. Is it our view that the Afghans would not be 
the best people to be in charge of these detainees?
    General Dunford. Senator, I do not know if that is a viable 
alternative right now. First of all, I do not know what the 
Afghan desire would be for those third country nationals or the 
legal framework within which the Afghans would be able to keep 
them.
    The Afghans have moved to an evidence-based process now for 
detention operations. We, of course, use the Law of Armed 
Conflict framework. I am not sure that the Afghan process would 
allow us to keep those third country nationals detained beyond 
2014. That is something we would have to take a very close look 
at.
    Senator Blunt. Okay, thank you. On the force, you mentioned 
about 350,000 Afghan forces. This would not be the police 
forces, but the other forces?
    General Dunford. No, Senator, that is the aggregate of both 
the police and the army, less the ALP. So the 352,000 would be 
all the Afghan uniformed police, all the Afghan army, the 
border police, and then over and above that 352,000 right now 
is the ALP, which are approved for a level of 30,000.
    Senator Blunt. How big a problem does attrition continue to 
be?
    General Dunford. Attrition in the Afghan army is a 
significant challenge. We have nearly 30 percent attrition. In 
the police, it is much better. It is at or above the goal of 15 
to 16 percent. The local police is very low and so the army is 
the area where attrition is of greatest concern.
    Senator Blunt. Is it highest as you get closer to fighting 
season?
    General Dunford. Senator, we have not seen a direct 
correlation between the fighting season and the attrition. We 
have seen a direct correlation between leadership and 
attrition.
    Senator Blunt. What size force as you contemplate us 
leaving--I guess I want two questions here. First, what size 
force do we have to leave to get people and equipment out 
successfully? Then second, what size force should we hope that 
the Afghans can maintain and sustain?
    General Dunford. Senator, with regard to our equipment, 
there are really three aspects of closing down in Afghanistan. 
One is the retrograde of equipment that would come back here to 
the United States to reset our Services. The others are base 
closure and material reduction.
    The equipment that is needed to reset our forces, we will 
get that equipment out by the end of 2014. We still in all 
likelihood will be closing out bases and reducing materials, 
that is, returning the ground to the way we found it, post-
2014, and so we will need some element to be able to do that. 
Currently, the size of that element is 2,500 soldiers that help 
us with that. I expect we will need some similar organization 
post-2014. That is called from CENTCOM. It is a logistics unit 
that actually works in CENTCOM.
    With regard to the Afghans, I think we now are looking at 
that 352,000 force being sustained through 2018 as being the 
best recommendation.
    Senator Blunt. What level of help will the Afghans need 
from outside to sustain a force that big?
    General Dunford. In accordance with the Chicago Conference, 
Senator, through 2018, the vast majority of the money necessary 
to sustain that force is going to come from the United States 
and international partners.
    Senator Blunt. The vast majority of that money will come 
from outside?
    General Dunford. Absolutely, of about $5 billion to sustain 
that force, the Afghans will pay approximately $500 million. So 
the preponderance of the resources necessary to sustain Afghan 
forces post-2014 would come from the international community 
and the United States.
    Senator Blunt. On removing our people from Afghanistan, at 
what point do you leave--at what point do the people that are 
there face real danger, and how many people do we need to leave 
there to safely get everything--the other people out?
    General Dunford. Senator, there are a couple of things. One 
is that we will make that decision based on the security 
environment, based on the capabilities and capacities of the 
Afghans, who will provide the security environment within which 
we draw down. But as General Dempsey says, we are never going 
to ask 10 soldiers to do more than 10 soldiers' worth of work. 
We will very much shrink the perimeter, figuratively speaking, 
in Afghanistan in a way that keeps protection first and 
foremost.
    Senator Blunt. One other question on facilities that we 
have there. You mentioned returning the situation back to the 
way it was before the facility was built. Do we have any kind 
of process we go through with the Afghans to decide if they 
would like things left there that otherwise are just of no 
value?
    General Dunford. We do, Senator. We have a very detailed 
plan for Afghan infrastructure to sustain Afghan forces post-
2014. Some of that infrastructure is being transitioned from 
coalition forces to Afghans, but all the infrastructure that is 
over and above their ability to sustain over time. We have a 
very detailed plan that links the infrastructure that the 
Afghans will maintain post-2014 with the resources we project 
will be available to sustain that infrastructure. We want to 
make sure there is a balance between the projected resources 
for sustainment and the numbers of facilities that the Afghans 
keep. So those facilities that cannot be sustained post-2014 
are the ones I talked about that we would reduce back to the 
way we found it.
    Senator Blunt. Do we go beyond just the military use of 
those facilities to hospital, school, some other use? Do we 
have a checklist like that or not?
    General Dunford. We do, Senator. In fact, that is led by 
the Afghan Government, the Minister of Finance. So if local 
governments want to have infrastructure, they submit a request 
up to the Minister of Finance. The Afghan Government is 
responsible for determining the sustainability of that, and 
then the Minister of Finance would come to us with a request 
for a specific piece of infrastructure to be maintained.
    Senator Blunt. Thank you, General. You have had a tough 
assignment, and it looks like to me it is not going to get a 
lot easier. I wish you well with it, you and those people you 
work with. Thank you for what you do for us.
    General Dunford. Thanks, Senator.
    Chairman Levin. Thank you, Senator Blunt.
    Senator Kaine.
    Senator Kaine. Good morning, General Dunford. Thank you for 
appearing before us today. I want to ask about a couple of 
items starting with budgetary questions, and there have been a 
number already about sequester. I did a tour of Langley Air 
Force Base in Virginia a couple of weeks back, and we talked 
about this issue of the warfighter being protected in 
sequester. But I was surprised to find that many of the 
military personnel that maintain the F-22s are not defined as 
warfighters. So some of the sequester and budgetary issues are 
affecting their ability to maintain aircraft, and that is one 
of the factors that then leads to the step down of readiness of 
some of the F-22 units.
    As you are--with 60,000 folks under your command in 
Afghanistan, while the warfighters may be protected, how does 
the sequester and some of the other budgetary challenges 
impinge upon your mission? In particular, I think about things 
about the retrograding of equipment. Is that something that is 
viewed as a core warfighting mission, or is that a part of the 
mission that is subject to some of these budgetary reductions?
    General Dunford. Senator, all the functions that we are 
performing inside of Afghanistan to include retrograde are 
considered warfighting functions. So I have been assured by the 
Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff that there will not be an adverse impact in those areas. 
But I think you highlighted a really important point, and that 
is units that are at home station, and I know from my previous 
assignment as the Assistant Commandant of the Marine Corps, it 
is very difficult to say we will properly resource those units 
that are next to deploy and not support those who are not next 
to deploy. It is not that clean.
    So as we start to see degradation of readiness at home 
station, there is absolutely no doubt that that degradation of 
readiness in home station will affect both units that are next 
to deploy as well as those not slated currently for deployment.
    Senator Kaine. On the retrograding question, and there may 
have been a question asked about this before I came over from 
the Senate floor. But just talk about the current status of the 
relationship with Pakistan as it affects retrograding of 
equipment out of Afghanistan.
    General Dunford. Senator, we just completed about 2 months 
of proofs of principle to move equipment from Afghanistan into 
Pakistan and through the Port of Karachi, as well as to move 
the backlogged equipment that has been there for almost a year 
from Pakistan into Afghanistan. In fact, we are largely clear 
of the backlog that was in Pakistan, moving it into 
Afghanistan.
    We also have successfully completed those proofs of 
principle, and so we now will be looking over the next 45 to 60 
days to actually maximize the movement across the ground lines 
of communication into Pakistan.
    So at this point, it is moving in the right direction after 
a very long period of time where those ground lines of 
communication were not available. We are in a good place.
    Senator Kaine. General, you had a good colloquy with 
Senator Lee that I was watching about Pakistan, about the 
importance of the relationship. I think many members of the 
committee and many Senators look at certain actions that the 
Pakistani Government with a lot of concern, the imprisonment of 
Dr. Afridi and others. At the same time, we also understand 
that Pakistan has lost as many people in the fight against 
terrorism, and al Qaeda, and the Taliban, and other elements as 
any of our allies.
    You alluded to, but did not go too deeply into, the 
question of the nuclear arsenal in Pakistan. From a security 
standpoint, is not one of the main issues that the United 
States needs to worry about is an unstable Pakistan that could 
potentially jeopardize the security of the nuclear arsenal 
there. That is one of the reasons that we need to be so 
diligent in not distancing ourselves from Pakistan, but 
continuing to work to the greatest degree we can as partners 
for the ultimate security of that nuclear arsenal.
    General Dunford. Senator, I believe we have common cause 
with the Pakistanis in that regard. I think they increasingly 
recognize the threat of extremism. We certainly have been 
dealing with that for some years. So, to the extent that I 
think we have at least an effective relationship in dealing 
with that extremist threat over the next couple of years, I 
think Pakistan's increased appreciation of the threat will be 
helpful in that regard.
    Senator Kaine. General, you talked with Senator Graham a 
little bit about drones and the use of drones, and I would like 
to expand and go deeper into that question. There is a strong 
military rationale, and we have been able to use drones in a 
way that have provided us significant advantage in the military 
mission. Yet we also, as a body, as a military, as a Congress, 
weigh the effect of the drone program on the civilian 
populations in both Afghanistan and Pakistan.
    Talk to us a little bit about the current state of affairs 
in Afghanistan in terms of how our drone program affects the 
civilian population's acceptance of our mission and whether it 
leads to additional violence against our troops.
    General Dunford. Senator, we employ unmanned vehicles in 
Afghanistan. We have the same standard for proportionality and 
discrimination with those as we do with manned vehicles. So 
mitigation of civilian casualties is no different whether there 
is a pilot in the cockpit or not.
    Before we would employ force in Afghanistan, we ensure that 
we have positive identification of target. We identify 
individuals with hostile intent, and we do a very clear 
assessment of the collateral damage that might be associated 
with a particular strike.
    I am actually quite proud of our forces over the last 18 
months in terms of all that we have done to mitigate the risk 
of civilian casualties. But I do not think there is a direct 
relationship between a method, a tool--which is what an 
unmanned vehicle is--and collateral damage or civilian 
casualties. I think it is the employment of that tool which is 
most important, and I think we are employing those tools in a 
way that mitigates the risk of civilian casualties.
    Senator Kaine. General, even beyond civilian casualties, 
because I have a high degree of confidence that you are 
deploying the tool in that way to minimize collateral damage 
and civilian casualties. How about the civilian perception, the 
attitudes that the drone program brings about? Even if we are 
doing it perfectly, if it creates a great deal of controversy 
within the civilian community, that can make our challenge more 
difficult down the road. What is your perception of the Afghan 
civilian population's understanding of the program as we 
implement it?
    General Dunford. Inside of Afghanistan, Senator, I have not 
detected any concern by the average civilians over those 
vehicles. I think that is in large part because of the way we 
employ them. I would tell you that the Taliban are very 
concerned about those vehicles, and they talk about them all 
the time.
    Senator Kaine. Let me move to another issue about the 
presidential elections. I think our presence post-2014 is 
designed to address two conflicting issues: first, that we are 
not an occupying force; but second, we are not going to abandon 
Afghanistan. Trying to meet both of those goals is challenging.
    What do you think our recent announcements and policy in 
this country about post-2014 troop levels, what effect are they 
likely to have on the outcome of the 2014 presidential 
elections?
    General Dunford. Senator, you are exactly right. The 
message of occupier and abandonment, while seemingly 
inconsistent, exists in the same space. I am optimistic that we 
can address this as we set the condition for the elections in 
2014 in a couple of ways. One is the message of us as an 
occupier is actually not going to resonate as the Afghans 
assume the lead in 2013. What the Afghan people will see on a 
day-to-day basis is ASF providing security. So the message that 
the Taliban have had of us an occupier, or the Afghans being a 
tool of occupiers, I do not believe will resonate in 2013 as 
the Afghans take the lead.
    With regard to the message of abandonment, the BSA is a 
commitment post-2014 is a component. But what really is 
necessary is that the United States and the international 
community convey a credible, consistent, and comprehensive 
message of commitment post-2014. Together with that commitment 
and the Afghans in the lead, I think both the message of us an 
occupier and the message of us abandoning the Afghan people 
gets undermined.
    I think what you are alluding to is really important in 
that it is the information environment that will in large part 
determine the success of the elections in 2014. The messaging 
that we are talking about here is very important. A strong 
narrative of commitment and a strong narrative of Afghans' 
credible, to the fore, in the lead for providing security, I 
believe is a critical component to success of the elections in 
2014.
    Senator Kaine. General Dunford, thank you.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. General Dunford, 
thank you very much for your service and for taking on this 
very challenging job at such a critical time.
    I want to go back to further discussion about the 
relationship between Afghanistan and Pakistan because I agree 
with your view of it. That is critical. Whatever we can do to 
help smooth that relationship and really foster it is very 
important.
    Now, President Karzai has repeatedly accused Islamabad of 
trying to undermine the peace process between Afghanistan and 
the Taliban. Does Karzai's accusation have any substance to it? 
Can you update us on whether or not there is actually a 
reconciliation process underway?
    General Dunford. Senator, I do not know if there is any 
credibility to President Karzai's statement about Pakistan 
undermining the peace process with the Taliban. The DOS, of 
course, is working very hard. The President has identified 
political reconciliation as one of his priorities; that is, 
President Obama. So, I know the DOS is working very hard to do 
that.
    There is an office being opened in Doha. I think we are 
waiting now for the Taliban to meet their end of the bargain in 
terms of moving the process ahead. But that is not a process 
that I am deeply engaged in on a routine basis. From my 
perspective, my job is to set the conditions that would 
facilitate reconciliation; that is, the conditions on the 
ground.
    But with regard to Afghanistan and Pakistan and President 
Karzai's comments, I think they merely highlight the very deep 
mistrust that currently exists and has historically existed 
between Pakistan and Afghanistan. I think what we have to do 
is, in our efforts to bring, especially in a military-to-
military perspective, is if we can bring that relationship 
together in a constructive way and establish a foundation of 
trust, I think just like our Nation when we do military-to-
military engagements, that can be the foundation of something 
deeper, some strategic partnership that would obviously take 
years to develop.
    But I believe that that military-to-military bilateral 
relationship between Afghanistan and Pakistan needs to be one 
of our objectives. It is--and I did not mention it earlier; I 
should have--one of the components I believe is critical to 
winning is affecting a constructive bilateral relationship 
between Afghanistan and Pakistan so that tactical issues along 
the border area do not actually have an adverse strategic 
impact.
    Senator Shaheen. One of the areas of tension, as you point 
out, has been that border. When I was there in 2011, we saw 
that very directly. One of the things that you talk about in 
your testimony is the effort to improve that cross border 
coordination with the tripartite border standard operating 
procedure, I think you called it.
    Can you talk about whether that has actually improved as 
the result of that, and what the potential is to keep that 
going post-2014 when obviously those border issues will 
continue because there is a basic disagreement about where the 
border--who controls what along the border.
    General Dunford. Senator, I can. We did sign that agreement 
back in the fall, and as a result now, we have an exchange of 
information. In the event of cross border firing and so forth, 
that is very helpful.
    I can give you a recent example. About 3 weeks ago, the 
Pakistanis began to do some construction on a border post that 
is in the border region. So it is disputed as to where exactly 
that border post is, whether it is in Afghan territory or 
Pakistani territory.
    Initially, the Pakistanis brought forces up to the border 
point because of tensions. The Afghans indicated that they were 
not going to stand for that border post being approved, and 
their forces were given the authority to use force in the event 
that was necessary.
    We used the tripartite process called border flags process 
to bring together senior Afghan leadership, senior Pakistan 
leadership, and coalition forces. We did that as recently as 
yesterday, again with the border flags meeting, that attempts 
to de-escalate the situation.
    In this particular case, the issue is still out there. It 
is not permanently resolved, but over the last 3 weeks we have 
been able to de-escalate and manage the crisis as a result of 
this tripartite agreement.
    What is most important is that we eventually migrate that 
to a bilateral relationship between Afghanistan and Pakistan. 
But I actually think it is not only possible, it is happening 
right now, and I think both the leadership on the Pakistani 
side as well as the Afghan side recognize that tactical issues 
must be addressed at a tactical level and not allowed to bleed 
over into the strategic relationship. Even President Karzai has 
acknowledged that to me, and he is very supportive of a 
military-to-military relationship in order to address these 
disputes.
    So, Senator, I think that while cautiously optimistic, I am 
optimistic that we are moving in the right direction.
    Senator Shaheen. That is encouraging. You have talked a 
fair amount this morning about what our presence might look 
like post-2014. Can you talk about the commitment of our NATO 
partners after 2014, and how robust that might be, and whether 
there is agreement about what that presence should look like?
    General Dunford. Senator, I attended the defense 
ministerial in Brussels in February, and at that time, the 
collective defense ministers agreed that they would contribute 
between 8,000 to 12,000 forces for post-2014. They gave that 
guidance for general planning to take place.
    I think it is fair to say that our coalition partners are 
very much looking to see what the U.S. contribution will be 
post-2014 before making a commitment. Also in many cases, our 
coalition partners will need U.S. enabling support before they 
are able to commit. By enabling support, in most cases I mean 
specifically casualty evacuation, medical evacuation, post-
2014, which they cannot provide, but would need that to be in 
place in order for them to be committed post-2014.
    Senator Shaheen. Is there anything that we should be doing 
in the lead up to 2014 to provide those assurances to folks so 
that everybody is in agreement on what happens?
    General Dunford. I do, Senator. I know that the President 
is deliberating now, but as he makes a decision about the basic 
framework--he already committed to President Karzai as recently 
as January that we would be there in some significant way post-
2014. But as President Obama makes his specific decision, then 
I think it is going to be incumbent upon all of us at all 
levels to engage our coalition partners to ensure that we build 
the same effective coalition post-2014 that we have had over 
the past several years.
    I think it is a huge success story the way we brought NATO 
together to accomplish the mission inside of Afghanistan. I 
think it is important that we maintain that same level of 
commitment for the alliance post-2014.
    So I think in terms of sequencing, once the President makes 
his decision and certainly discusses that with his counterparts 
in the coalition, I think we will then start to see the 
coalition partners make their own decisions. But their ability 
to generate the political will to contribute post-2014 and do 
the budgetary planning necessary for post-2014 in large part 
rests with the U.S. decision and what our presence will be 
post-2014.
    Senator Shaheen. Thank you very much. My time is up, but I 
should say, just offer my condolences. As a Boston native, I am 
sure you share the concern that we all felt yesterday looking 
at what happened at the Boston Marathon. So hopefully you did 
not have any family members who were affected.
    General Dunford. No. Thank you, Senator.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Ayotte.
    Senator Ayotte. Hi, General.
    General Dunford. Senator.
    Senator Ayotte. Thank you so much for being here today and 
for your service to our country. We appreciate very much your 
leadership.
    I wanted to ask, first of all, about the transfer of the 
detainees into Afghan control for the Parwan detention 
facility, and how is that going. Can you also tell me if we 
capture, for example, a target, in particular, a foreign 
national or a high value target, even who is an Afghan, that 
may have intelligence that is helpful to preventing future 
attacks. How do you we handle that situation in light of the 
detention transfer?
    General Dunford. Senator, I can talk to you about the 
transfer. One of the last things I did before I left 
Afghanistan, and it was about 10 days after the transfer, I 
walked down to Parwan, spent about 4 hours on the ground with 
the leadership down there, and walked through each and every 
function that is being performed inside the facility to ensure 
that the partnership arrangement that we had with the Afghans 
protected our interests. I am satisfied right now that it does 
in the sense that we still have good control over the 
detainees, we have visibility, and we are in a position to 
ensure that there is humane treatment taking place inside of 
the facility.
    With regard to future targets, a couple of things. One is 
we have a commitment by Afghanistan that they will not only 
keep in detention the enduring security threats that we have 
identified in the past, but any future enduring security 
threats would also be detained.
    I would prefer to talk about the intelligence piece in a 
closed forum.
    Senator Ayotte. Okay.
    General Dunford. But I would tell you in this forum that I 
am satisfied that we will have appropriate access and 
intelligence sharing with the Afghans.
    Senator Ayotte. Thank you, General. I appreciate that, and 
we can follow up in a more appropriate forum on the 
intelligence gathering.
    You said that the enduring security threats, those that are 
detainees obviously that would continue to represent a threat, 
you are satisfied that the Afghans will maintain control of 
those individuals. So I think you and I both would want to 
avoid a Daqduq type situation. So, can you assure us that, how 
this agreement is with the Afghans, and to your satisfaction, 
that we will not have that kind of situation?
    General Dunford. Senator, we have a commitment from 
President Karzai to President Obama that those individuals will 
be detained. What I have said to the Chairman and what I have 
said to the chain of command is that were Afghanistan not to 
meet their commitment, we would have real operational and 
policy issues to address at that particular time. I think it 
would change in some way the fundamental nature of our 
operations, and certainly change the nature of support that we 
might provide to Afghanistan in the future.
    So what I am saying now is that we have an agreement with 
Afghanistan to keep those enduring security threats detained. 
Were they to violate that commitment, I am satisfied that that 
would be a significant change in our relationship, a 
significant change in the nature of operations, and we would 
have to deal with that at the time.
    Senator Ayotte. Okay. Thank you, General. I wanted to 
follow up on the questions that Senator Blumenthal asked you 
about, and I appreciated your testimony. Senator Brown and I 
were original sponsors of the No Contracting With the Enemy 
provisions, and Senator Blumenthal and I had the opportunity to 
travel to Afghanistan in January together. As a result of that, 
we have introduced legislation called Never Contracting With 
the Enemy--to try to fill in some of the gaps to improve--we 
made significant progress with the No Contracting With the 
Enemy, but to fill in some of the gaps, including to drop the 
contract level from $100,000 to $20,000 as you had mentioned 
earlier.
    But it is not just the DOD that is contracting. What other 
agencies are contracting in Afghanistan?
    General Dunford. USAID, Senator. I think that, as you are 
describing the new legislation, it will be critical that not 
only DOD that has contracts, but the DOS, and, specific, USAID, 
which has a significant role in contracting in Afghanistan. 
They would have the same authorities that we do; that is, do 
not contract with the enemy.
    Senator Ayotte. From your perspective, have we already been 
able to save taxpayers' dollars with the No Contracting With 
the Enemy provisions?
    General Dunford. Senator, we have been able to save 
taxpayers' dollars, but, more importantly, we have been able to 
prevent those dollars from being in the hands of the enemy who 
would do us harm.
    Senator Ayotte. With our legislation that Senator 
Blumenthal raised to you, is this something you would endorse 
that we hopefully would get passed this year?
    General Dunford. Senator, I would. I think anything that 
would keep resources out of the hands of the enemy would be a 
positive step. So far the legislation has been very effective 
both with subcontractors and contractors, and expanding that to 
include non-DOD organizations makes a lot of sense.
    Senator Ayotte. Great, thank you. Major General Longo was 
very helpful to us in helping us put together this legislation, 
so we are grateful certainly for his support as well. So thank 
you for that.
    I wanted to ask you about the follow-on for us in 2014 and 
beyond. With each area of Afghanistan, thinking about the 
follow-on recommendations that you will make to the President, 
how important is it that we have a presence in all four regions 
of Afghanistan?
    General Dunford. Senator, I think it is very important that 
we be in all four regions. From my perspective, it starts with, 
I think, the lowest level at which we should advise and assist 
post-2014 is at the Afghanistan corps level. They have six 
corps level headquarters, and they are in the four corners of 
the country.
    I also think being in the four corners of the country will 
help us to better support the DOS mission. As I mentioned 
earlier, I am completely integrated with Ambassador Cunningham 
in terms of planning for U.S. presence post-2014. So I believe 
being in the four corners is going to be necessary for us to 
ensure that the gains that we have made with the Afghan forces 
are sustainable post-2014.
    Senator Ayotte. When we look at Iran and their role in 
Afghanistan, thinking particularly post-2014, what area of the 
country are you most worried about with respect to Iran in 
terms of having a presence?
    General Dunford. It is in the west, Senator. It is in the 
Herat region, and we certainly see today evidence of malign 
Iranian influence. We certainly see today great effort made by 
Iran to control what goes on inside of Afghanistan.
    I am happy to report that many of the resources have not 
fallen on fertile ground. They have tried to do things that 
they have been unsuccessful in doing. But they absolutely have 
great interest and influence in the western part of the 
country.
    Senator Ayotte. If we were not to have a presence or a 
sufficient presence in the western part of the country looking 
at our post-2014 posture, along with our NATO allies, what type 
of influence do you think Iran would have, and what do you 
think that they would do with that?
    General Dunford. I think it is fair to say that they would 
have influence in the western part of the country. I think it 
is also fair to say if past is prologue, that that influence 
would be malign and could be destabilizing for Afghanistan.
    Senator Ayotte. How is it going in terms of negotiating the 
BSA?
    General Dunford. Senator, the next meeting of the BSA is 
May. The last thing I did before I left was I met with 
Ambassador Hakimi, the Afghan Ambassador to the United States. 
He is the primary negotiator for Afghanistan. All I can say is 
that at least on the Afghan side, his sense was that things 
were moving in the right direction. He was positive that we 
would be able to sign the BSA. President Karzai has said the 
same thing to me.
    There are two or three difficult issues that we are working 
through right now. They are non-negotiable from a U.S. 
perspective. So I think the team is working very hard to 
address that right now.
    Senator Ayotte. Thank you very much, General. I appreciate 
your leadership and all of those that serve underneath you. You 
do an excellent job.
    General Dunford. Thank you, Senator.
    Senator Ayotte. Thanks.
    Chairman Levin. Thank you, Senator Ayotte.
    I just have a few additional questions, General. One is the 
use of the term ``safe haven'' and ``sanctuary.'' I have always 
used them interchangeably, and obviously you do not. At least I 
think that became obvious in some of your early conversation 
this morning. Can you explain to us the difference in your 
vocabulary between the two? Who has what where?
    General Dunford. I can, Mr. Chairman. We use the term 
``safe haven'' in an area from which we cannot get at the enemy 
or in an area within which the enemy has freedom of movement. 
Inside of Afghanistan, we use the term ``safe haven.'' 
``Sanctuary,'' we use that with regard to Pakistan.
    So when we talk about enemy safe havens, just so we are 
clear, inside the force. When we talk about enemy safe havens, 
we are talking about areas that are geographically within 
Afghanistan, and then obviously sanctuaries being those areas 
outside of Afghanistan.
    Chairman Levin. I think there is some confusion about those 
terms. I will just talk about my mind. I will not talk about 
others, but I am confident that colleagues also have used the 
terms interchangeably, and that that may have led to some of 
the comments this morning. I am guessing on that because you 
said that--I believe you said that--I thought you were 
referring to the Taliban not having a sanctuary in Pakistan, 
but I think you would agree that the Taliban does have a 
sanctuary inside Pakistan. The Afghans--excuse me--the Afghan 
Taliban. Would you agree?
    General Dunford. Absolutely, Mr. Chairman. In the exchange 
earlier, I thought we were talking about al Qaeda.
    Chairman Levin. Yes, and you may have been. I may have 
misheard it, but I think there was some real uncertainty, at 
least my staff also felt--I am not talking about your comments 
necessarily, but in the exchange, that there was some 
uncertainty as to what was being referred to in Afghanistan 
because it is clear that there is a sanctuary for the Afghan 
Taliban inside of Pakistan. Is that correct?
    General Dunford. Mr. Chairman, there is no doubt. There is 
also the Pakistani Taliban moving, in some cases, freely in the 
eastern part of Afghanistan and back into Pakistan.
    Chairman Levin. All right. I think probably in the future, 
it would be wise for you to pin that down when talking to 
Members of Congress because I have heard it repeatedly used 
interchangeably. Again, I will just point to myself, not to 
others. I am not saying it is a mistake one way or the other, 
but it is used interchangeably by many colleagues, I believe, 
and it surely is myself. So I am going to try to be more 
accurate in the future, particularly when I am talking to one 
of our military leaders. But I think in the common ordinary 
sense of the word out in the public, that there has not been 
that distinction which has been made, and you should be aware 
of that if I am accurate, okay?
    General Dunford. I will do that, Mr. Chairman.
    Chairman Levin. Okay. Second, I want to ask you about the 
time table for the decision as to the number of troops that 
would be there after 2014. I think that most of us, maybe all 
of us, agree that we need to have a credible commitment, the 
earlier the better. That is important, for the uncertainty that 
does exist in Afghanistan to be removed both in the eyes of the 
people, the government, that clearly want an ongoing presence 
that is credible. It is also important for the Taliban to 
understand there will be an ongoing, credible commitment from 
the United States.
    As to the specific number of that, you have not made a--
numerically what that commitment would amount to in terms of 
troops, you have not made your recommendation yet, and you have 
indicated today that there are a number of factors which can 
affect your judgment as to what that proper number or range 
would be. So far, am I right?
    General Dunford. Yes, Mr. Chairman.
    Chairman Levin. Okay. Now, the one issue, however, that, 
and you have spoken on this and I want to be real clear on, is 
that in your mind in making your recommendation, that it is 
essential that there be a BSA that protects whatever number of 
troops we have that are there, for instance. Another is on the 
sovereignty issue. We are very careful about protecting our 
troops that are in a foreign country so that they are not, if 
it is not appropriate, subject to the judicial arm of other 
countries if we do not think that it is appropriate for that to 
be the case, and under what circumstances will an American 
soldier or marine or whatever, be subject to foreign 
jurisdiction. We are very protective of our troops. Is that 
correct?
    General Dunford. Mr. Chairman, that is absolutely correct.
    Chairman Levin. That is set out in a BSA. It is supposed to 
be set forth, is that right?
    General Dunford. That is exactly right, Mr. Chairman. In 
other countries, of course, it is the SOFA, and that really is 
a subset of the BSA.
    Chairman Levin. All right. Whatever commitment that is 
made, in your judgment, should be conditional upon a working 
out of a BSA. Is that fair to say?
    General Dunford. Absolutely, Mr. Chairman. Any authority 
that we have to operate post-2014 would be within the framework 
of a BSA. As the U.N. mandate expires in December 2014, and the 
military technical agreement expires in 2014, our presence 
post-2014 would be based on the BSA that we make with the 
Afghan Government.
    Chairman Levin. Not only would it be dependent on that 
authority, but my point is that whatever number we have could 
only be committed if we have a BSA. We need a BSA before troops 
are actually left there after 2014, is that correct?
    General Dunford. That is exactly right.
    Chairman Levin. So that whatever number, whether it is 
8,000, 10,000, 12,000, 6,000, or 14,000, whatever the number 
is, is our share of the total number of troops there. That 
would only be accomplished if, in fact, there is a BSA between 
our two countries.
    General Dunford. That is correct, Mr. Chairman.
    Chairman Levin. Okay. Again, we all thank you very much for 
your service. You have really done a superb job there following 
a superb number of commanders that have preceded you. You are 
carrying out a very impressive tradition, and we commend you 
for it. We thank you for it and those who work with you.
    General Dunford. Thank you, Mr. Chairman.
    Chairman Levin. We will stand adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                          2013 FIGHTING SEASON

    1. Senator Inhofe. General Dunford, this fighting season will have 
the Afghans in the lead for security operations with support from the 
International Security Assistance Force (ISAF). What are your strategic 
military objectives for the 2013 fighting season?
    General Dunford. This will be the first fighting season with the 
Afghan National Security Forces (ANSF) in the lead across Afghanistan. 
In many parts of Afghanistan, the ANSF have been responsible for their 
own security for some time. Our objective is simple--we want the ANSF 
to be successful. We will help the ANSF achieve success by being a good 
supporting partner as they take charge of security at the national 
level. This will improve ANSF confidence in their own ability to stand 
against the insurgency and terrorism. This in turn will improve the 
confidence of the Afghan people in their government to deliver security 
across Afghanistan. Improved security delivered by the ANSF will set 
the conditions for successful Afghan presidential elections and the 
peaceful transfer of presidential power in Afghanistan for the first 
time in history. This will allow the North Atlantic Treaty Organization 
(NATO) to transition from combat operations to a mission focused on 
train, advise, and assist of the ANSF.

    2. Senator Inhofe. General Dunford, how does the 2013 fighting 
season set the conditions for success in 2014 and beyond?
    General Dunford. By the conclusion of fighting season 2013, the 
ANSF will have had their first full fighting season in the lead for 
security. The significance of a successful fighting season means a 
confident ANSF, one in which the people of Afghanistan can be proud. 
When the ANSF succeed in fighting season 2013, the people, the 
candidates, and most importantly, the political parties will feel 
secure about the elections process for 2014. The 2013 fighting season 
refines the narrative about the Taliban--they are losing and are 
progressively marginalized in their influence. An Afghan process owned 
by Afghans and delivered by the Taliban has been their strategic focus. 
Instead, the Afghans will have taken ownership of their own security 
and political process without them (unless they turn to 
reconciliation). The election, the security institutions, and a 
government acceptable to the Afghan people all help set conditions for 
a sustainable Afghan future: each are related to successes during this 
fighting season.

    3. Senator Inhofe. General Dunford, in the draw down to 34,000 U.S. 
forces by February 2014, what will be the size of the international 
forces?
    General Dunford. By February 2014, total requirements for ISAF 
forces will total 52,000 troops. Of that, 18,000 troop requirements 
have been identified for sourcing by the 49 other troop-contributing 
nations. Sourcing of these requirements will occur in June at the NATO 
Force Generation Conference and that will determine the final number of 
troops pledged against the campaign.

    4. Senator Inhofe. General Dunford, do you sense that our 
international partners are heading for the exits and how do you manage 
that issue?
    General Dunford. I can emphatically state that our international 
partners are not heading for the exits. Much like the United States, 
they are managing force reductions in accordance with the decreased 
troop requirements as the ISAF campaign progresses and the capabilities 
of the ANSF increase. I actively engage with our international partners 
in conjunction with Supreme Allied Commander Europe and the NATO Senior 
Civilian Representative in a synchronized engagement plan to ensure 
that we send a common message about our current and future requirements 
to heads of state, ambassadors, and senior defense officials from all 
50 nations in the coalition. The coalition remains solid in their 
commitment to the obligations of this mission.

                   2014 FIGHTING SEASON AND ELECTIONS

    5. Senator Inhofe. General Dunford, two major challenges for 2014 
will be supporting the Afghan presidential elections in April 2014 and 
drawing down to the appropriate force size by the end of 2014. The 
smooth transition of power is critical to the democratic, peaceful, and 
secure future of Afghanistan. Will 34,000 U.S. troops and a 
commensurate number of allied and partner forces, in support of the 
ANSF, be enough to provide security for the Afghan elections in April 
2014?
    General Dunford. Based on our current estimates and plans, ISAF 
will require approximately 52,000 troops to support the ANSF in 
providing security throughout Afghanistan for the 2014 national 
elections. The 34,000 troops that the United States has provided and 
18,000 troops that we have requested that Supreme Headquarters Allied 
Powers Europe provide from the troop contributing nations is sufficient 
to complete this mission.

    6. Senator Inhofe. General Dunford, what are the critical military 
tasks after the April elections for the remainder of 2014 for your 
forces?
    General Dunford. Assuming that the Afghan presidential elections go 
as planned, in April 2014, and the political transition is successful, 
then our critical tasks will remain supporting and enabling the ANSF to 
neutralize the threats. Our Special Operations Forces will continue to 
partner with their ANSF counterparts and we will continue to advise the 
security ministries at the corps and brigade levels. The decisive point 
of our post-election train, advise, and assist mission will remain at 
the brigade level. Other critical tasks will include a theater reserve 
and quick reaction force for our forces, the civil authorities we 
enable, and the international community.

                               POST-2014

    7. Senator Inhofe. General Dunford, what missions do you believe we 
should be performing in post-2014 Afghanistan to preserve the 
investment of American lives and treasure we have invested over the 
last decade?
    General Dunford. We will conduct three missions in the post-2014 
environment: train, advise, and assist at the brigade level and above; 
counterterrorism; and support to civil authority. We will be conducting 
the counterterrorism mission in Afghanistan for a few more years. In 
extremis support to civil authority will remain a part of planning in 
Afghanistan.

    8. Senator Inhofe. General Dunford, what is your professional 
opinion on whether it would be better to train at the brigade or the 
corps level post-2014?
    General Dunford. Optimally, I believe that post-2014 we need to 
maintain a robust train, advise, and assist presence with all of the 
Afghan National Army (ANA) corps and regional police commands. The 
decisive point for train, advise, and assist to the ANSF is at the 
brigade level. We are exploring options for how best to configure the 
NATO and U.S. force to best support the ANSF. We fully expect the 
Afghan security institution leadership (Ministries of Defense and 
Interior) are contemplating Afghan military command and control 
constructs and may reorganize based on their own lessons learned from 
the upcoming fighting season. In addition, we will require the ability 
to reach out and conduct regular train, advise, and assist visits to 
the ANA and the Afghan National Police (ANP) in order to monitor the 
effective use of the international donor community's continued 
investment in the ANSF.

    9. Senator Inhofe. General Dunford, if you had to make a 
recommendation at this point in time, would your recommendation be to 
train at the brigade or at the corps level?
    General Dunford. The Afghans are making significant progress as 
they are poised to take the lead for security during this fighting 
season. The Afghan units engaged in the fight today are at varying 
levels of performance and have tailored Security Force Assistance teams 
from the coalition from the corps down to the tactical level. Some 
Afghans units are conducting successful un-partnered operations. The 
performance of the Afghans during this fighting season will drive us to 
refine our partnering model for the 2014 elections period and the 2014 
fighting season. The Afghans are also expected to reorganize their 
command and control structures in both the Ministry of Defense (MOD) 
and Ministry of Interior (MOI). Those variables will drive how we 
partner with the Afghans in the post-2014 Resolute Support Mission.

    10. Senator Inhofe. General Dunford, in your testimony, you said 
that your recommendation of required post-2014 troop levels would 
depend in a large part on the performance of the Afghan forces in the 
2014 fighting season. What are the key dimensions of their performance 
that you will use to determine the appropriate post-2014 force size?
    General Dunford. At the end of the fighting season in 2013, the 
most important performance measure is the ability of the ANSF to be 
responsible for their own security at the national level. Specific 
areas I will look at this year will be proficiency of ANSF leadership 
and unit training. I am also interested in the progress of developing 
command and control, logistics, and combined arms capabilities.

    11. Senator Inhofe. General Dunford, why is it important, from a 
security and military perspective, for the United States to stay 
engaged post-2014 in all four regions of Afghanistan?
    General Dunford. Our efforts post-2014 will be regionally-based and 
focused on the Afghan corps throughout the country. This will maintain 
the momentum achieved by ISAF, align us with the Afghans security and 
military force lay down, and build upon current coalition and 
coalition/Afghan relationships. The post-2014 military mission will 
conduct training, advising, and assisting with a focus at the Afghan 
national and institutional level at the corps level. This will support 
the development of a sustainable level of skills and capabilities which 
will enable the ANSF at corps level to deal effectively with residual 
insurgent threats.

    12. Senator Inhofe. General Dunford, is it your sense that the 
Afghan Government would object to 20,000 or more U.S. and international 
troops remaining in Afghanistan after 2014 for training and assisting 
and counterterrorism?
    General Dunford. No, although, I do believe that 20,000 is the top 
end of what the Government of the Islamic Republic of Afghanistan 
(GIRoA) would probably find acceptable in Afghanistan.

    13. Senator Inhofe. General Dunford, what are the risks if the 
residual U.S. force size in Afghanistan is too low?
    General Dunford. The post-2014 mission, under NATO authorities is 
predicated on a role without combat. This portion of the mission is 
focused on continued train, advise, and assist of the fielded Afghan 
forces and training institutions for both the ANA and ANP. 
Additionally, a portion of the force will also be dedicated to 
improving capacity in the Afghan security institutions and the civilian 
oversight of the military. These two NATO missions will be balanced by 
a coalition of the willing, under U.S. leadership, focused on 
counterterrorism against transnational terrorists. It is important to 
note, that a sufficient force must be dedicated against the train, 
advise, and assist mission to ensure the ANSF deliver long-term 
security to Afghanistan, while the coalition of the willing with our 
Afghan partners ensure that transnational terrorists do not take 
advantage of the mission shift to try and re-establish their safe 
havens in Afghanistan. A too-small force will not allow a balanced 
effort between these interlinked missions.

    14. Senator Inhofe. General Dunford, what are the primary lessons 
learned from the drawdown in Iraq that you are attempting to apply in 
Afghanistan?
    General Dunford. There are a number of lessons learned from Iraq 
that U.S. Forces-Afghanistan (USFOR-A) and the International Security 
Forces Afghanistan are applying now and will be over the course of the 
next 20 months with regards to retrograde activities. One of the 
primary lessons learned that I would like to highlight from the 
drawdown in Iraq is the need for a Single Logistics Command and Control 
(C2) system in theater. This lesson was applied in Afghanistan since 
the spring of last year and has been critical to the Combined Joint 
Operations Area (CJOA) and theater sustainment and retrograde 
processes. This concept basically placed the pre-2012 logistics command 
structure under the 1st Theater Sustainment Command (TSC).
    The TSC has been able to bring strategic partners into the CJOA as 
a single point of contact linking them at the operational level. This 
did not happen in the Iraq drawdown causing inefficiencies. This also 
enabled U.S. Army Central Command to start to execute certain Army 
Forces tasks such as Class VII equipment management and asset 
visibility. With the proper enablers, the TSC can smooth out CJOA 
processes.
    Single Logistics C2 must be integrated into corps operations, 
unlike Iraq, or we will lose the opportunity to ``operationalize'' both 
sustainment and retrograde. This is happening now and represents some 
improvements from our Iraq experiences. The lesson lies in our ability 
to codify the proper command and support relationship in order to 
ensure sustainment and retrograde are nested with the operational plan/
execution.

                            DRUG TRAFFICKING

    15. Senator Inhofe. General Dunford, the United Nations says opium 
poppy cultivation will increase for a third year in a row and is 
heading for a record high and provides 75 percent of the global crop. 
What do you think will be the effect of the drawdown of both U.S. 
troops and Drug Enforcement Administration (DEA) presence in 
Afghanistan on the drug trade in Afghanistan?
    General Dunford. The reduction of U.S. troops and DEA presence in 
Afghanistan will limit the ability to support certain Afghan-led 
counterdrug operations, especially in remote areas heavily influenced 
by the Taliban. However, DEA's enduring mentoring and training mission, 
combined with continued international training, advice, and assistance 
from NATO after the ISAF mission, will ensure Afghan counterdrug forces 
have the ability to continue to operate in many areas of the country. 
As the recent arrest, conviction, and 20-year jail sentence by Afghan 
authorities of U.S. kingpin Haji Lal Jan Ishaqzai demonstrates, Afghan 
capability to locate and arrest dangerous narcotics traffickers has 
advanced significantly. Sustained mentorship and support to Afghanistan 
law enforcement will be necessary to prevent insurgents and criminal 
elements from evading law enforcement, threatening the population, and 
potentially allowing sanctuary for transnational terrorist groups.

    16. Senator Inhofe. General Dunford, will the Taliban receive a 
boost in funding from increased drug trafficking?
    General Dunford. Yes. The Taliban profits from all aspects of the 
narcotics trade, but a key source of drug revenue for the insurgency is 
taxes levied on illegal opium poppy cultivation. While there are no 
official estimates yet for the size of the 2013 crop, there are 
indicators that this year's poppy crop could be among the largest of 
the last decade. A larger opium crop will also generate more revenue 
for the insurgency from Taliban extortion of drug movement, processing, 
and trafficking networks. Furthermore, they have become more deeply 
involved in all aspects of narcotics trafficking and where they own the 
cycle from processing to export, as the recent kingpin designation of 
senior Taliban commander Naim Barich demonstrated.

                                PAKISTAN

    17. Senator Inhofe. General Dunford, as you have indicated, the 
stability of Afghanistan affects the stability of Pakistan and vice 
versa. What aspects of the relationship between Afghanistan and 
Pakistan are the most critical and what are the indicators that would 
tell you the relationship is heading in the right direction versus 
wrong direction?
    General Dunford. Pakistan and Afghanistan's ability to engage 
consistently and constructively--both diplomatically and militarily--is 
critical to overcoming their mutual deep-seated mistrust and improving 
their relationship. An irritant in this relationship is the countries' 
shared porous border and hostilities that arise when each nation 
attempts to protect sovereign territory--which is not clearly defined. 
ISAF has been working to mitigate this irritant in the relationship by 
facilitating engagement between the Pakistan and Afghanistan's 
militaries, institutionalizing communications processes, and brokering 
a framework to manage military border incidents. Improvements in these 
areas would indicate the relationship is maturing; however, the 
countries are not yet independently able to manage cross-border 
disputes. Although progress is slow and fragile, Pakistan and 
Afghanistan have also held a number of bilateral and multilateral 
engagements which indicate the relationship is heading in the right 
direction, but there is more work to do. Of note is Afghan Minister of 
Defense Mohammadi's February visit to Pakistan and a series of 
trilateral sessions hosted by United Kingdom Prime Minister Cameron 
which included President Karzai, Prime Minister Ashraf, and 
representatives from both Afghan and Pakistani political and security 
establishments.

    18. Senator Inhofe. General Dunford, what are the best roles or 
tasks for the United States to assist in the improvement of the 
Afghanistan-Pakistan relationship?
    General Dunford. I do not assess there will be a deep, strategic 
partnership between Afghanistan and Pakistan, but I am encouraged by 
the degree of coordination and cooperation that's taken place at the 
military-to-military level, that improves in fits and starts. We would 
like to take the fundamental relationship we're building in a 
trilateral fashion between the militaries, and use it as the 
underpinnings for a solid bilateral relationship between the Afghans 
and the Pakistanis by the end of 2014. We'll continue to mature this 
effort over the next 20 months, with the understanding that there is 
distrust over such things as the border, but significant areas of 
potential agreement in other parts of their relationship such as 
training. The United States has significant influence with both nations 
and can continue to provide positive opportunities for each nation to 
deepen its trust of the other.

    19. Senator Inhofe. General Dunford, if Afghanistan is stable and 
security steadily improves, will that send more or less extremist/
terrorist elements into Pakistan?
    General Dunford. Even a stable and secure Afghanistan will have 
difficulty preventing terrorist and extremist elements from operating 
in some rural, rugged areas near the Pakistan border without continued 
counterterrorism pressure. Improvements in stability and security in 
Afghanistan would make it more difficult for these groups to operate 
and could force some extremists and terrorists to move to Pakistan.

    20. Senator Inhofe. General Dunford, in your professional military 
opinion, has our security assistance to Pakistan been effective at 
helping Pakistan and in reducing the flow of extremists and instability 
from Pakistan to Afghanistan?
    General Dunford. U.S. security assistance programs are an important 
tool in building strong partnerships and equipping states with military 
capabilities to address their security requirements. Internal threats 
from extremism, coupled with a nuclear arsenal, make Pakistan a state 
wherein we have vital national interest.
    In my opinion, our security assistance programs help us build a 
long-term strategic partnership with Pakistan. U.S. security assistance 
programs assist the Government of Pakistan in coping with extremism 
within their own borders and enhance security and stability. However, 
U.S. Central Command (CENTCOM) is responsible for executing security 
assistance programs in Pakistan and can best assess the effectiveness 
of these programs.

    21. Senator Inhofe. General Dunford, what changes to our security 
assistance to Pakistan would improve regional stability?
    General Dunford. Security assistance programs are critical in 
helping us build a long-term strategic partnership with Pakistan and 
providing capabilities to enhance security and stability. CENTCOM is 
responsible for executing security assistance programs in Pakistan and 
can best assess what specific capabilities might improve regional 
stability.

                         POLITICAL UNCERTAINTY

    22. Senator Inhofe. General Dunford, you have indicated that many 
Afghans fear uncertainty about the future support of the United States 
and the international community more than they fear the Taliban. What 
specific U.S. actions or elements of U.S. policy do you consider most 
important to reducing the uncertainty which contributes to potential 
instability and the hedging of actors both within Afghanistan and in 
the region?
    General Dunford. A clear and unambiguous commitment of U.S. and 
international support beyond 2014, such as a Bilateral Security 
Agreement (BSA) or a NATO Status of Forces Agreement (SOFA), would help 
reduce uncertainty and hedging by actors within Afghanistan and the 
region. There is anecdotal information now that Afghans, certainly the 
Afghan elite, are preparing for an uncertain future making plans to 
depart Afghanistan prior to the end of 2014. Afghanistan has a societal 
memory of the post-Soviet war period, when the international community 
turned their attention away from the country, and they fear a relapse 
to the fighting that defined that period.
    We do not believe we can fully mitigate Afghan and regional hedging 
behavior, as it is rooted into the culture of a society that has seen 
over 35 years of warfare. However, international assurances--especially 
binding pledges or transparent announcements of post-2014 intentions--
should help to mitigate hedging behavior.

    23. Senator Inhofe. General Dunford, sustainment of infrastructure 
programs and projects in Afghanistan is one of the key variables 
Congress will need to decide upon going forward. Which of the 
infrastructure programs and projects do you consider most important to 
sustain, and why?
    General Dunford. The Department of Defense (DOD) through the use of 
Afghanistan Infrastructure Program (AIP) fund has been able to secure 
$400 million for fiscal year 2011 and fiscal year 2012, and $325 
million in fiscal year 2013, 2-year funds, by demonstrating the link 
between Department of State (DOS) investments with that of the GIRoA's 
priorities. Those national priorities include infrastructure needs such 
as power, water, and transportation. USFOR-A and the U.S. Agency for 
International Development engage with the GIRoA at the local, 
provincial, and ministerial levels to synchronize project planning and 
execution with GIRoA priorities and assessment for sustainment as the 
leading indicators. The funding allocated by Congress promotes economic 
growth and agricultural yields, while connecting Afghans to services, 
civil society, and improved governance at all levels.

    24. Senator Inhofe. General Dunford, based on your interaction with 
the Afghanistan Government and conditions on the ground, which of the 
most important Afghan ministries are most capable and which require the 
most improvement to secure the peaceful future of Afghanistan?
    General Dunford. The peaceful future of Afghanistan will rely on 
what the Afghan people want. The security conditions achieved in 2013 
and an effective political transition in 2014 will allow Afghans to 
exploit the decade of opportunity. The focus of the post-2014 mission 
is all about growing capabilities and capacities of the Afghans. As I 
have said before, some of the remaining challenges we will have to deal 
with start at the ministerial level. There is no metric to determine 
``the most important'' Afghan ministries. All 17 ministries of the 
Afghan Government are important for the Afghan people, whether it is 
the MOD, the MOI, the Ministry of Commerce and Industry, or the 
Ministry of Women's Affairs, to name a few--they are all important to 
their nation's success. It is my view today that there are various 
levels of improvements needed across the board to secure the peaceful 
future of Afghanistan. We have the metrics in place that both address 
where we have to be for proficiency at the ministerial level, as well 
as 14 functional areas that we evaluate in our tactical units that 
allow us to determine where they are and what support they may need to 
improve to take it to the next level.
    NATO Training Mission-Afghanistan (NTM-A) employs the same 
capability milestone ratings to assess ministerial development. 
Additionally, NTM-A assesses ANSF institutional progress towards 
autonomous operations for ANSF training institutions, regional military 
hospitals, and logistics nodes. Both ministerial and institutional 
development is rated against the following capability milestones:

        <bullet> 1A: Autonomous Operations
        <bullet> 1B: Coalition Oversight
        <bullet> 2A: Reduced Coalition Advising
        <bullet> 2B: Regular Coalition Advising
        <bullet> 3: Coalition Partnering
        <bullet> 4: Initial Capability

    25. Senator Inhofe. General Dunford, what are the key elements you 
recommend should be a part of U.S. policy and policy implementation to 
fight the problem of corruption within the Afghan Government?
    General Dunford. Holding the GIRoA to the terms of the Tokyo Mutual 
Accountability Framework is the key to ensuring the political will to 
fight corruption in Afghanistan. If you ask most people who are 
tracking the issue in Afghanistan how to curb high-level corruption, 
they will tell you: ``by the International Community better controlling 
its own purse strings.'' Donor countries must withhold funding to 
institutions and ministries that make little or no progress in fighting 
corruption. The Afghan system of having to pay for official positions 
seems to be a driving factor fueling corruption in the security forces. 
We recommend a systematic approach by donor nations to address the 
system of impunity and interference with the judicial system within 
GIRoA.

    26. Senator Inhofe. General Dunford, what should the U.S. role be 
in the Afghan reconciliation process?
    General Dunford. The DOS has lead for reconciliation policies. From 
my perspective, the United States, through ISAF, needs to set the 
conditions on the ground that would facilitate the dialogue between the 
Afghan Government and the Taliban.

    27. Senator Inhofe. General Dunford, how has Congress been the most 
helpful to your efforts as a military commander in Afghanistan?
    General Dunford. Congress has been extremely helpful in a number of 
ways.
    First, thanks to Congress' leadership and support, the men and 
women of U.S. forces serving in Afghanistan today are well-trained and 
well-equipped. It is important that the fiscal commitments that permit 
such a premier fighting force are sustained in the future.
    Second, Congress' funding of the Afghan Security Forces Fund (ASFF) 
has been instrumental in building and equipping the ANSF. As a result 
of your support, the ANSF will shortly assume responsibility for 
security throughout Afghanistan. ASFF will continue to be vitally 
important to the ANSF in sustaining the very force we just helped build 
and to secure those gains for which we have paid so dearly.
    Third, Congress' passage of the National Defense Authorization Act 
for Fiscal Year 2012 was effective in halting contracts to entities and 
individuals supporting an insurgency or opposing coalition forces.

                       TRANSPORT MISCALCULATIONS

    28. Senator Inhofe. General Dunford, at the April 10, 2013, news 
briefing on the defense budget, Under Secretary Robert Hale stated in 
answer to a question that costs in Afghanistan were $7 to $10 billion 
higher this year than what we anticipated. This is very troubling in 
any environment, but especially under the constraints that DOD is 
currently under. Can you verify if this is correct, and can you give a 
detailed account for such a massive underestimation?
    General Dunford. The $7 to $10 billion shortfall range is correct. 
Overseas Contingency Operations (OCO) budgets are put together 1 to 2 
years before execution; a difficult task given the uncertainties that 
exist in war. In the fiscal year 2013 OCO budget request, DOD estimated 
that many of the operating costs would decline proportionately with the 
reduction of troops. What we are seeing in actual execution is that 
many of these costs will not decline until bases are closed. In 
addition, DOD did not forecast the closure of the Pakistan ground lines 
of communication for such an extended period of time, so higher 
transportation costs arose from using more expensive means and routes. 
DOD also did not have a good estimate of the total equipment retrograde 
requirement. In late fiscal year 2012, CENTCOM stood up a Material 
Retrograde Element to manage the retrograde efforts and can now provide 
a better estimate of the retrograde requirement.

                        ARTICLE 60 MODIFICATIONS

    29. Senator Inhofe. General Dunford, we trust you to make decisions 
that may result in the loss of life in order to protect the Nation and 
accomplish the mission. Every day, commanders must make decisions to 
correct underperformers with training or education, and, when 
necessary, to discipline troops or possibly relieve commanders. 
Ultimately, our Nation charges them, and you, with the responsibility 
to establish cohesive, mission-ready combat units. While we trust you 
with our sons' and daughters' lives, the proposed modifications to 
Article 60 of the Uniform Code of Military Justice (UCMJ) seem to 
suggest that we do not trust your discretion when it comes to the UCMJ 
offenses. Do you, as a commander, consider the UCMJ as it is currently 
structured, to be a viable tool to help you maintain and enhance the 
cohesiveness and fighting capabilities of your combat units?
    General Dunford. Yes. I believe the UCMJ, as currently structured, 
is important for commanders to maintain and enhance cohesiveness and 
fighting capabilities, and to maintain good order and discipline.

    30. Senator Inhofe. General Dunford, have you seen any evidence 
that commanders are abusing their discretion as the convening authority 
to adjust sentencing?
    General Dunford. No. In my experience, commanders exercise their 
judicial responsibilities under the UCMJ very carefully and with 
deliberation for the interests of all personnel involved, including 
victims of offenses.

    31. Senator Inhofe. General Dunford, how would the proposed changes 
to the UCMJ impact your effectiveness as a commander?
    General Dunford. I will continue to exercise my responsibilities as 
a Convening Authority as authorized under the UCMJ, with due 
consideration for all personnel involved.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                         GREEN ON BLUE ATTACKS

    32. Senator Wicker. General Dunford, over the span of the Afghan 
conflict there have been many instances of attacks by Afghan forces on 
U.S. and coalition personnel. A January 2013 Foreign Policy article 
noted that 52 coalition soldiers died as a result of 37 green on blue 
attacks in 2012. Despite improvements in the overall quality and 
capabilities of the ANA's personnel that you noted in your testimony, 
the data indicates that green on blue attacks escalated last year. As 
we continue to hand over security responsibilities to the Afghan 
Government, I am concerned that we may not fully understand the 
motivations and allegiances of our ANA counterparts. Are you seeing a 
similar trend developing this year with regard to green on blue 
attacks?
    General Dunford. Because no single definitive countermeasure can 
prevent insider attacks, ISAF and the ANSF introduced a program of 
countermeasures, which applied collectively, are reducing the threat 
posed by insider attacks. These measures include strengthening the 
vetting processes for new recruits and those returning from extended 
leave; increasing the number and training for counterintelligence 
agents; and enhancing force protection for ISAF troops operating in 
small units or in remote areas.
    Additionally, I am encouraged by the joint, integrated ISAF-ANSF 
approach and level of the Afghan Government's commitment to reducing 
this mutual threat. For example, ISAF and ANSF established the three-
star-led Insider Threat Action Group, which they co-chair, as well as 
the Joint Casualty Assessment Team, that investigates every incident in 
order to identify lessons and required actions for the future.

    33. Senator Wicker. General Dunford, how many such attacks have 
occurred thus far in 2013?
    General Dunford. From January 1 to April 16, 2013, there have been 
four green on blue attacks.

    34. Senator Wicker. General Dunford, do you believe that the 
screening program for prospective Afghan military and police forces is 
sufficient?
    General Dunford. The Afghans have established sound procedures for 
vetting ANSF personnel. The challenge is the quality of compliance with 
those standards and working through the high volume of personnel. The 
Afghan Government has significantly increased the number of 
counterintelligence personnel in the ANSF, in order to ensure that they 
have sufficient personnel with the appropriate training to ensure 
compliance with those standards. The Afghans understand that this is a 
threat both to us and to our relationship with them. This also affects 
the will of the coalition at the strategic level and erodes the trust 
between our forces. The coalition has also significantly increased the 
number of counterintelligence resources being provided in Afghanistan 
and developed additional measures to mitigate threats against our 
personnel.

    35. Senator Wicker. General Dunford, are there additional 
capabilities that need to be made available to change the trend?
    General Dunford. First and foremost, the insider threat is a force 
protection issue. ISAF has taken a comprehensive approach to the 
insider threat, both at home station in terms of enhanced training and 
additional measures that take place once forces are deployed to 
Afghanistan. There has also been a significant increase in the number 
of counterintelligence resources provided in Afghanistan, both on the 
part of the coalition as well as within the ANSF. This is starting to 
bear fruit as over 400 ANSF members have been arrested as a result of 
this increased scrutiny, and additional investigations continue. This 
critical issue is far from being solved, but progress is being made.

                        AFGHAN ARMORED VEHICLES

    36. Senator Wicker. General Dunford, the Army intends to sign a 
sole source contract for 135 additional Mobile Strike Force Vehicles 
(MSFV) for Afghan Security Forces. The cost under this contract is 
estimated at $1.0 to $1.5 million per vehicle. With respect to our 
current fiscal challenges, the sole-source procurement of new vehicles 
appears less cost-effective than the upgrade and transfer of hundreds 
of existing Mine-Resistant Ambush Protected (MRAP) vehicles that are 
already in Afghanistan. Have you considered the upgrade and transfer of 
the in-country MRAP vehicles to the Afghans?
    General Dunford. The initial decision to procure 488 MSFVs was made 
in fiscal year 2010 after market research determined that the MRAP 
variants did not meet the Combined Security Transition Command-
Afghanistan (CSTC-A) operational requirements relating to an enclosed 
turret with day/night sight. In June 2012, an additional requirement of 
135 MSFVs to outfit additional units was validated and implemented. The 
justification to sole-source the additional 135 MSFVs was based on the 
following factors:

         - Maintaining fleet commonality to increase operational 
        flexibility and reduce procurement, logistical, and training 
        burdens.
         - Preventing an unacceptable program delay which would 
        severely and negatively impact the ANSF's ability to maintain 
        security and achieve dominant combat capability prior to the 
        transition on December 31, 2014.
         - Reducing substantive duplicate costs incurred by issuing a 
        competitive solicitation. The estimated costs associated with 
        competitive procurement would have exceeded $125 million and 
        would not have been recovered through competition.

    37. Senator Wicker. General Dunford, will you provide written 
justification for the sole-source contract for the MFSVs?
    General Dunford. See attached Justification and Approval (J&A).
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    38. Senator Wicker. General Dunford, has ISAF or CENTCOM conducted 
a cost analysis that provides a side-by-side comparison of executing 
the sole-source contract for the MSFVs against upgrading and 
transferring the in-country MRAP vehicles to the Afghans?
    General Dunford. Yes. The initial decision to procure 488 MSFVs was 
made in fiscal year 2010 after market research determined that the MRAP 
variants did not meet the CSTC-A's operational requirements relating to 
an enclosed turret with day/night sight. In June 2012, an additional 
requirement of 135 MSFVs to outfit additional units was validated and 
implemented. The justification to sole-source the additional 135 MSFVs 
was based on the following:

         - maintaining fleet commonality to increase operational 
        flexibility and reduce procurement, logistical, and training 
        burdens.
         - preventing an unacceptable program delay which would 
        severely and negatively impacted the ANSF's ability to maintain 
        security and achieve dominant combat capability prior to the 
        transition on December 31, 2014.
         - reducing substantive duplicate costs incurred by issuing a 
        competitive solicitation. The estimated costs associated with 
        competitive procurement would have exceeded $125 million and 
        would not have been recovered through competition.

    Additional rationale considered:

         - The MSFV is distinguished by armored protection around both 
        the occupants and the major automotive platform as opposed to 
        the occupant-centric tactical vehicle protection provided to 
        MRAPs, where the engine and transmission are more vulnerable to 
        small arms and other attacks.
         - The chosen way-ahead leverages the only known source 
        (Textron Marine and Land Systems) with the knowledge and 
        expertise to fulfill the requirement without adversely 
        impacting the cost, schedule, and continuity of the existing 
        ANSF fleet.

                      STATUS OF DR. SHAKEEL AFRIDI

    39. Senator Wicker. General Dunford, there is no doubt that our 
operations against Al Qaeda and other terrorist organizations rely upon 
assistance from foreign nationals who are willing to risk their lives 
to help us. It is widely understood that Dr. Shakeel Afridi played an 
important role in helping the United States determine the whereabouts 
of Osama Bin Laden. His bravery was rewarded by a 33-year jail sentence 
for treason. I am concerned that our failure to secure the release of 
Dr. Afridi will be seen by others as an indication that the risk of 
aiding the United States is too great, no matter how important the 
target. Can you provide me a status update on Dr. Afridi? If your 
office is unable to, would you request that your colleagues in CENTCOM 
provide me with this update?
    General Dunford. The DOS is responsible for handling and working 
the details of Dr. Afridi's situation and can better update you on his 
status.

    40. Senator Wicker. General Dunford, are you aware of ongoing 
efforts by the United States to secure his freedom?
    General Dunford. The DOS is responsible for handling and working 
the details of Dr. Afridi's situation and can better update you on his 
status.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                         SERGEANT BOWE BERGDAHL

    41. Senator Ayotte. General Dunford, Sergeant Bergdahl was captured 
by the Taliban on June 30, 2009, in Paktika province. Can you provide 
an update on Sergeant Bergdahl's situation, as well as your efforts to 
find him and bring him home?
    General Dunford. I can assure you that finding and rescuing 
Sergeant Bergdahl remains a top priority. The military effort to bring 
Sergeant Bergdahl home is as strong as it has ever been and there are 
many people, within DOD and throughout the U.S. Government, who are 
committed to this goal. This effort will not cease until it is 
successful and he is safely brought back to the United States and 
reunited with his family.

                         FAILURE IN AFGHANISTAN

    42. Senator Ayotte. General Dunford, if we rush to the exits or 
provide an insufficient force after 2014, what would failure in 
Afghanistan potentially look like?
    General Dunford. A drawdown that is too hasty would pose risks to 
the viability of the Afghan Government. We would expect a resurgence in 
insurgent influence. Diminished access to resources would exacerbate 
tendencies to aggregate wealth, leading to intense competition and a 
probable return to factional fighting (renewed civil war) as 
powerbrokers--including insurgent commanders--sought to secure their 
positions and interests. The conflict between these groups would likely 
be protracted, as regional players would become entangled in providing 
calibrated support to groups deemed favorable to the interests of those 
regional actors. Government and powerbroker groups have already amassed 
the degree of resources required to extend a conflict for resources. We 
would likely see a refugee outpouring similar to the early 1980s, if 
renewed civil war hindered Afghans' abilities to provide for their 
families. An increase in ungoverned spaces would allow hostile non-
state actors the freedom to train and operate in Afghanistan.

    43. Senator Ayotte. General Dunford, if we fail in Afghanistan, 
what could be the impact on U.S. national security interests?
    General Dunford. We came to Afghanistan as a result of September 11 
to ensure that the Taliban did not harbor al Qaeda and al Qaeda didn't 
have the space within which they could plan and conduct further 
operations against Western interests. We also wanted to preclude a 
resurgence of Taliban rule, which provided the opportunity to al Qaeda 
to operate from sanctuaries in Afghanistan. Those objectives are 
unchanged and continue to retain international support as evidenced by 
the 50-nation coalition created over the last decade.
    Failure in Afghanistan would provide an opportunity for al Qaeda 
and other extremist groups to reestablish safe havens from which to 
plan and conduct transnational terrorist acts. Furthermore, failure in 
Afghanistan would have detrimental effects on the stability of 
Pakistan, a country with nuclear weapons that is already battling a 
significant terrorist problem.

                         AFGHAN FIGHTING SEASON

    44. Senator Ayotte. General Dunford, do you have the forces and 
resources you need for this fighting season?
    General Dunford. Yes, I have all the forces and resources that I 
require to support the ANSF as they take the security lead for the 2013 
fighting season. ISAF will have approximately 97,000 troops during the 
upcoming fighting season. The troop requirements for this fighting 
season reflect a bottom-up developed plan that reflects the troop 
requirements as seen by subordinate commanders in support of the 
overall ISAF campaign plan and the subordinate commands' seasonal 
orders framework. This plan was presented to and approved by Joint 
Forces Command-Brunssum and Supreme Headquarters Allied Powers Europe.

    45. Senator Ayotte. General Dunford, do you anticipate having to 
drawdown U.S. forces during the fighting season?
    General Dunford. Our current planning does include significant 
troop reductions during the fighting season as we transition from the 
68,000 to 34,000 U.S. forces in Afghanistan. In order to reduce 
turbulence, we will execute as many troop reductions as possible during 
already planned troop rotation periods. This is accomplished by not 
replacing troops as they reach the scheduled end of their deployments. 
Some of these troop rotations will occur during the fighting season.

    46. Senator Ayotte. General Dunford, do you believe you have the 
discretion to wait until after the fighting season concludes?
    General Dunford. Yes. Based upon the guidance I have received from 
my chain of command, I believe I have the flexibility to manage the 
transition from the 68,000 force to the 34,000 force as I deem best 
supports the mission as long as I accomplish this transition by the 
February 12, 2014, date directed by the President in his State of the 
Union address.

    47. Senator Ayotte. General Dunford, what would be the dangers to 
our mission, and to our troops, if the plan was changed and you were 
forced to withdraw a significant number of troops during this fighting 
season?
    General Dunford. An accelerated reduction of troops during the 
fighting season would jeopardize our ability to provide the support 
that our ANSF partners require as they transition into the lead for 
national security for the first time during this campaign. This would 
also challenge our ability to maintain coalition cohesion as many of 
our international partners count on valuable enabler support that we 
provide, such as intelligence, surveillance, reconnaissance, route 
clearance, and medical evacuation.
    An accelerated withdrawal would also increase our vulnerabilities 
to attack as it would challenge my ability to balance the flow of troop 
withdrawal with maintaining the capabilities required to secure our 
base camps and our lines of communication at a time when the enemy is 
at his strongest. Most importantly, though, would be the erosion in 
confidence within the ANSF, the GIRoA, the Afghan people, and within 
our coalition. This fighting season will be critical to establishing 
confidence in a positive future in Afghanistan.

    48. Senator Ayotte. General Dunford, if at any point this year or 
next year you feel that the pace of the drawdown is endangering our 
troops or the mission outcome, will you provide that professional 
military judgment not only to your chain of command, but also to this 
committee?
    General Dunford. Yes.

    49. Senator Ayotte. General Dunford, how are your subordinate 
leaders going to manage the competing demands of conducting the mission 
while preparing to withdraw?
    General Dunford. We have done a great deal of planning to examine 
the methodology for our redeployment. This is not necessarily new, as 
we did reduce our force level from the height of the surge in 2012. As 
the ANSF take the lead for security across Afghanistan in the summer of 
2013 and effectively counter the insurgency, the nature of our mission 
will change to a supporting role. We will still be supporting the ANSF 
this year in great enough numbers to ensure their success, but our 
mission demands will lessen and enable us to redeploy forces, balancing 
risk to mission and risk to force.

                            AFGHAN ELECTIONS

    50. Senator Ayotte. General Dunford, compared to previous 
elections, to what extent will U.S. and NATO forces be able to offer 
point and/or area security during key electoral processes--particularly 
on Election Day and during an extended election results aggregation 
period lasting several weeks?
    General Dunford. We are going to do whatever we need to do to 
support the Afghan security forces in establishing an operational 
environment within which free, fair, and legitimate elections can take 
place. To have participatory elections, effective elections, elections 
that are accepted as legitimate, we're going to have the right security 
environment to do that. Our focus as a coalition is to support the ANSF 
as they set the environment within which the elections take place. The 
ANSF are planning to provide layered security with a unity of effort 
during the elections period, integrating Afghan Local Police, Afghan 
Uniformed Police, ANA, and Afghan Special Forces. Confidence from a 
successful 2013 fighting season will set the conditions for successful 
presidential elections. ISAF's role will be to support the ANSF and to 
be prepared to provide in extremis support to the international 
community, if required.

    51. Senator Ayotte. General Dunford, in the previous election, 
women candidates and candidates representing ethnic minorities had 
their election activities severely curtailed due to physical security 
concerns. What actions and support can the international forces offer 
in this regard?
    General Dunford. We are going to do whatever we need to do to 
support the Afghan security forces in establishing an operational 
environment within which free, fair, and legitimate elections can take 
place. To have participatory elections, effective elections, elections 
that are accepted as legitimate, we're going to have the right security 
environment to do that. Our focus as a coalition is to provide support, 
such as logistics and air support, if required, to the ANSF to ensure a 
secure environment within which legitimate elections can take place.

    52. Senator Ayotte. General Dunford, what about for other 
candidates, voters, and poll workers in insecure areas?
    General Dunford. We are going to do whatever we need to do to 
support the Afghan security forces in establishing an operational 
environment within which free, fair, and legitimate elections can take 
place. To have participatory elections, effective elections, elections 
that are accepted as legitimate, we're going to have the right security 
environment to do that. Our focus as a coalition is to provide support, 
such as logistics and air support, if required, to the ANSF to ensure a 
secure environment within which legitimate elections can take place.

    53. Senator Ayotte. General Dunford, some elements within the 
Afghan Security Forces contributed to electoral fraud and malpractice 
problems in 2009 and 2010. To a certain extent this was due to 
insufficient training on their roles and responsibilities during the 
electoral process, generally, and on Election Day, in particular. What 
is the U.S. military planning that will ensure the ANA, ANP, and Afghan 
Local Police are better prepared in 2014?
    General Dunford. We have focused over the last few years on growing 
the quantity of the Afghan forces. Now that we have the quantity and 
the structure in place, we are focused on improving the quality of the 
force. When I look out at the security environment right now and the 
relative strength of the Taliban and the relative strength of the ANSF, 
I know they will be able to provide adequate security for the elections 
in 2014 with our support. Additionally, the Afghans have started the 
planning process to support the elections much earlier than in previous 
elections, nearly 14 months ahead, giving the ANSF more time to 
adequately prepare. The ISAF has also developed a supporting plan to 
ensure that ISAF is better prepared to support the ANSF in its security 
role for the 2014 elections. Credible ANSF stewardship is crucial to 
the successful completion of elections; their preparation will include 
training on proper procedures, actions, roles, and responsibilities in 
support of Afghanistan's free, fair, and legitimate elections.

    54. Senator Ayotte. General Dunford, additionally, a significant 
amount of electoral fraud in 2010 was committed during counting and 
tabulation of results. The Independent Electoral Commission is 
currently contemplating moving the count from 6,000 polling centers to 
large provincial count centers. This means there would be large 
stationary targets counting ballots for weeks. Would international 
security forces and Afghan Security Forces be able to secure such 
vulnerable temporary compounds for such a length of time?
    General Dunford. Yes. We are going to do whatever we need to do to 
support the Afghan security forces in establishing an operational 
environment within which free, fair, and legitimate elections can take 
place; this includes ensuring Afghan security forces will be capable of 
securing large temporary count centers during the election period. To 
have participatory elections, effective elections, elections that are 
accepted as legitimate, we're going to have to have a secure 
environment. Our focus as a coalition is to provide support to the ANSF 
so they may ensure a secure environment within which the elections take 
place.

    55. Senator Ayotte. General Dunford, if there is a provincial 
count--what training would the military be able to provide, 
specifically on ballot security from polling station to counting 
centers?
    General Dunford. Our focus as a coalition is to provide support, 
such as logistics and air support, if required, to the ANSF to ensure a 
secure environment within which legitimate elections can take place. 
The ANSF will provide the necessary security along lines of 
communication between polling stations and counting centers and are 
capable of conducting route security training to meet these 
requirements.

                            U.S. COMMITMENT

    56. Senator Ayotte. General Dunford, do some Afghans fear that the 
United States may abandon Afghanistan?
    General Dunford. Abandonment is a key theme of the Taliban 
narrative. We do not believe wide segments of the Afghan population 
view the ISAF drawdown as abandonment. Afghans are uncertain about 
their future and that of Afghanistan. Perceptions of ISAF 
``abandonment'' would likely derive from two primary anxieties: (1) 
deteriorating security conditions and increase of local violence as 
ISAF reduces its footprint; and (2) Afghanistan's economic viability 
post-2014. We believe Afghans delink the ISAF drawdown and the 
provision of security: according to the Afghan National Quarterly 
Assessment Report, 80 percent of Afghans believe the government is the 
primary provider of security in Afghanistan. However, we believe 
Afghans are concerned about their future, and likely link fears of a 
precipitous drop in post-2014 international economic assistance with 
anxieties over ``abandonment.''

    57. Senator Ayotte. General Dunford, what are the implications of 
those sentiments?
    General Dunford. Although we believe the majority of Afghans harbor 
concerns about the post-2014 environment, potentially negative outcomes 
likely to trigger hedging behavior are too remote for most Afghans to 
pursue hedging measures now. At this juncture, non-elites are likely 
preserving their options, and their current hedging posture is best 
described as minimal or preliminary. Elite Afghans have greater access 
to information and resources with which to hedge. Accordingly, we have 
observed examples of elites hedging, but for most of the population, we 
assess conditions have not yet reached a point where Afghans feel they 
need to firmly commit to hedging strategies.

    58. Senator Ayotte. General Dunford, how can we best convey an 
enduring U.S. commitment to the Afghan people?
    General Dunford. Political reconciliation and elections remain our 
strategic priorities. We can support both processes and significantly 
change the dynamic for the 2013 fighting season with an expeditious 
signing of the U.S.-Afghan BSA and NATO SOFA. The BSA and NATO SOFA 
will form the cornerstone of our narrative.
    Timely completion of these international agreements, properly 
integrated with our transition to train, advise, and assist, will 
undermine the Taliban's messages of abandonment and characterization of 
the coalition forces as occupiers. Today, a clear demonstration of our 
will, endurance, and commitment is required to advance the campaign. A 
reinvigorated and credible narrative in conjunction with Milestone 2013 
will positively influence the strategic landscape both within 
Afghanistan and throughout the region. A consistent and clear 
coalition-Afghan narrative will set favorable conditions for the 
political process and enhance prospects of success for Afghans in their 
first fighting season in the lead.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee

                   AFGHANISTAN BUDGET UNDERESTIMATION

    59. Senator Lee. General Dunford, at the April 10, 2013, news 
briefing on the defense budget, Under Secretary Robert Hale stated in 
answer to a question that costs in Afghanistan were $7 to $10 billion 
higher this year than what we anticipated. This is very troubling in 
any environment, but especially under the constraints that DOD is 
currently under. Can you verify if this is correct and give a detailed 
account for such a massive underestimation?
    General Dunford. The $7 to $10 billion shortfall range is correct. 
OCO budgets are put together 1 to 2 years before execution; a difficult 
task given the uncertainties that exist in war. In the fiscal year 2013 
OCO budget request, DOD estimated that many of the operating costs 
would decline proportionately with the reduction of troops. What we are 
seeing in actual execution is that many of these costs will not decline 
until bases are closed. In addition, DOD did not forecast the closure 
of the Pakistan ground lines of communication for such an extended 
period of time, so higher transportation costs arose from using more 
expensive means and routes. DOD also did not have a good estimate of 
the total equipment retrograde requirement. In late fiscal year 2012, 
CENTCOM stood up a Material Retrograde Element to manage the retrograde 
efforts and can now provide a better estimate of the retrograde 
requirement.

    60. Senator Lee. General Dunford, as the United States and 
Afghanistan negotiate for a troops presence in the country, can we 
continue to expect similar miscalculations in the future as referenced 
in the question above?
    General Dunford. I believe that as our force footprint is reduced 
and we enter into a more stable train, advise, and assist relationship 
with Afghanistan after 2014, budget fluctuations will become more 
predictable and less distinct in magnitude. I would also like to note 
that USFOR-A is committed to being a good steward of our citizens' tax 
dollars. Within USFOR-A, for example, we have self-identified over $9 
billion in cost savings and cost avoidance during fiscal years 2012 and 
2013.

                      AFGHAN GOVERNMENT CORRUPTION

    61. Senator Lee. General Dunford, a U.N. report in February stated 
that Afghanistan lost $3.9 billion in 2012 due to public sector 
corruption. That's twice the domestic revenue of the entire Afghan 
Government. The high level of corruption in Afghanistan poses a great 
problem for ISAF and the future of Afghanistan. What is your assessment 
of the level of corruption at all levels of government in Afghanistan 
and the anti-corruption efforts of the Afghan Government?
    General Dunford. I am convinced that corruption represents a 
strategic risk to Afghanistan and contributes to negative perceptions 
of the government by the Afghan people and donor nations. The climate 
of impunity, as well as a lack of control mechanisms, must be addressed 
in the coming years in order for the GIRoA to succeed and endure.
    While conditions vary significantly by ministry or agency, I assess 
that there is corruption at differing levels of the Afghan Government. 
That said, certain GIRoA ministries are performing better than others. 
The February 2013 Transparency International Report assessed levels of 
corruption within the Afghan MOD as lower than in other ministries and 
better than in many other emerging nations.

    [Whereupon, at 12:07 p.m., the committee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
